              Report No. D-2010-024                           November 24, 2009




 Contracted Advisory and Assistance Services for the
         U.S. Army Future Combat Systems




                                            SPECIAL WARNING

This report contains contractor information that may be company confidential or proprietary. Section 1905,
title 18, United States Code, and section 423, title 41, United States Code, provide specific penalties for the
unauthorized disclosure of company confidential or proprietary information. You must safeguard this report
in accordance with DoD Regulation 5200.1_R”
Additional Information
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AEC                           U.S. Army Evaluation Center
ATEC                          U.S. Army Test and Evaluation Command
BPA                           Blanket Purchase Agreement
C4ISR                         Command, Control, Communications, Computers,
                                 Intelligence, Surveillance, and Reconnaissance
CSC                           Computer Sciences Corporation
DOT&E                         Director of Operational Test and Evaluation
DTC                           U.S. Army Developmental Test Command
ETAS                          Engineering and Technical Analysis Support
FAR                           Federal Acquisition Regulation
FCS                           Future Combat Systems
FFRDC                         Federally Funded Research and Development Centers
GAO                           Government Accountability Office
IG                            Inspector General
IPT                           Integrated Product Team
JT&E                          Joint Test and Evaluation
LSI                           Lead Systems Integrator
NewTec                        New Mexico Technology Group
NLOS                          Non-Line-Of-Sight
OCI                           Organizational Conflict of Interest
OTC                           Army Operational Test Command
SAIC                          Science Applications International Corporation
SDD                           System Development and Demonstration
RDECOM                        Research, Development, and Engineering Command
TRADOC                        United States Army Training and Doctrine Command


                             FOR OFFICIAL USE ONLY
                                                INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                                400 ARMY NAVY DRIVE
                                           ARLINGTON, VIRGINIA 22202-4704



                                                                                                          November 24, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              AUDITOR GENERAL, DEPARTMENT OF ARMY
              DIRECTOR OF OPERATIONAL TEST AND EVALUATION

SUBJECT: Contracted Advisory and Assistance Services for the U.S. Army Future Combat
         Systems (Report No. D-2010-024)

We are providing the report for review and comment. This audit was initiated in response to
allegations made to the Defense Hotline relating to the operational test and evaluation of the U.S.
Army Future Combat Systems. We considered comments from the Director, Defense
Procurement and Acquisition Policy; the Army; and the Director of Operational Test and
Evaluation on a draft ofthis report in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments
received from the Depatiment of the Army and the Director of Operational Test and Evaluation
were partially responsive. Therefore, we request additional comments fi'om the Department of the
Army on Recommendation2.a and the Director of Operational Test and Evaluation on
Recommendation3.a by December 30,2009.

Ifpossible, please send a .pdffile containing your comments to aud.acm@dodig.mil. Copies of
the management comments must contain the actual signature of the authorizing official. We are
unable to accept the / Signed / symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Questions should be directed to Mr. Richard B.
Jolliffe at (703) 604-9201 (DSN 664-9201).


                                                         ~       Mary L. Ugone
                                                                                                      v<J-.
                                                             Deputy Inspector General
                                                                  for Auditing



                                                     SPEGIAb Vh\RNIPfS

This I EliSI t (anthillS (sutt Retet iRIsI Hh.HsH tllil. fnR) he tOIllJllin) eonlttlcntiul 81 1'16Jll ictUI,. 8eetisJt 1985,
title 18, tinitcd Stutes Code, .. nd sectioh 4=3, title (1, B1titcd Stutes COlle, pi 6, ide 3pecific I'cnalties fal tlte
UIlftlttI181'ji!iSt.J Eliselssure sf e8Hl~Rny ESllHticHtinl 81 IU 81'1 iehu 3 iBM. ttlRtiSll: Yell must SRfegtltil tI this) £1'81 t
in aeesl'dtntee l'iitlt QaD RegulRtiSH: 84QQ,7 &.

PSI.ioIiS 8t uU of the intin IilatieJl (outlines in this de£umcnt is ("Emltt fl6Ill public I elensE nutlCl g H.8.0. §
552(b)(t).



                                             FOR Oft'li'ICIA:L USE ONL¥
FOR OFFICIAL USE ONLY
   Report No. D-2010-024 (Project No. D2007-D000CH-0211.000)                   November 24, 2009

                    Results in Brief: Contracted Advisory and Assistance
                    Services for the U.S. Army Future Combat Systems
                                                             SAIC and four other services contractors received about
                                                             $91.0 million in funding for advisory and assistance
What We Did                                                  services even though these contractors were involved in
We initiated this audit in response to allegations made to   the SDD efforts for the FCS. DOT&E and the Army did
the Defense Hotline relating to the operational test and     not exercise the good judgment and sound discretion
evaluation of the U.S. Army Future Combat Systems            needed to prevent the existence of conflicting roles that
(FCS). The complainant alleged that the Director of          might bias a contractor’s judgment or provide it an unfair
Operational Test and Evaluation (DOT&E) had                  competitive advantage. See Appendix B for a detailed
inappropriately awarded a contract for engineering and       discussion of the hotline complaint.
technical analysis support to the Science Applications
International Corporation (SAIC) because it was also         We commend the contracting officer for the U.S. Army
participating in system development.                         Test and Evaluation Command for taking swift action
                                                             during the audit to delete the FCS-related tasks from its
To address the allegations, we reviewed whether the          contract after concluding that SAIC had statutory OCIs
same contractors that participated in the development of     regarding those tasks.
the FCS were also involved in the operational testing of
the systems (section 2399, title 10, United States Code,     What We Recommend
“Operational Test and Evaluation of Defense Acquisition      The FCS Program Office needs to discontinue obtaining
Programs). We also reviewed whether contractors had          advisory and assistance services from SAIC, an FCS
organizational conflicts of interest (OCIs) as defined in    developer, unless appropriate waivers are obtained.
the Federal Acquisition Regulation (FAR) by providing
systems engineering and technical direction related to the   DOT&E and the Army test agencies need to determine
FCS in light of their involvement in the development of      whether it is appropriate to obtain advisory and
the systems (FAR Subpart 9.5, “Organizational and            assistances services from a contractor that has significant
Consultant Conflicts of Interest”).                          involvement in the development of systems that they are
                                                             or will be overseeing, and if necessary, follow the
What We Found                                                appropriate waivers procedures and also determine
The Defense Hotline allegations were substantiated.          whether these requirements would be more appropriately
DOT&E has used SAIC as its primary commercial                met by Government employees.
contractor for advisory and assistance services since 1999
even though SAIC and The Boeing Company serve as             DoD needs to develop a standard OCI clause, which
Lead System Integrators (LSIs) for system development        precludes contractors involved in the development,
and demonstration (SDD) of the FCS. Further, the             production, or testing of a system for a military
solicitation and contract provisions for DOT&E’s             department from providing technical advice to the
requirements explicitly stated “offerors and providers are   program office for that system or from participating in
excluded from this contract who have significant             activities impacting the operational test and evaluation of
involvement in development of DoD systems that are           that system unless appropriate waivers are obtained.
under, or will be under DOT&E oversight.” SAIC
contended that the SDD contract was a “systems               Management Comments and Our
integration contract, not a development (supply-the-         Responses
system or maintain-the-system) contract;” however, total     We received fully responsive comments from the
contract expenditures through December 31, 2007, of          Director, Defense Procurement and Acquisition Policy.
$11.4 billion are from the Research, Development, Test,      We request additional comments from the Army on
and Evaluation appropriation. DOT&E, the FCS                 Recommendation 2.a. and from DOT&E on
Program Office, and the Army test agencies frequently
                                                             Recommendation 3.a. by December 30, 2009. Please
used the same contractors for advisory and assistance
                                                             see the recommendations table on the back of this page.
services that were developing the FCS. In FY 2007,


                                            FOR OFFICIAL USE ONLY
Report No. D-2010-024 (Project No. D2007-D000CH-0211.000)             November 24, 2009


Recommendations Table
Management                       Recommendations              No Additional Comments
                                 Requiring Comment            Required
Defense Procurement and                                       7.a and b
Acquisition Policy
Department of the Army           2.a                          1.a and b, 2.b, and 4
                                                              through 6.b
Director of Operational Test     3.a                          3.b
and Evaluation


Please provide comments by December 30, 2009.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of those controls. We identified internal
control weaknesses with DOT&E and Army controls over the award and administration
of advisory and assistance services contracts. Specifically, the procedures used by those
organizations to prevent contractors from providing advice on scopes of work for which
their judgment may be biased as a result of other activities or relationships they may
possess were ineffective. Implementing Recommendation 7 will improve the internal
control weaknesses identified in this report. We will provide a copy of this report to the
senior official responsible for internal controls within DOT&E and the Department of
Army.




                                         ii
                               FOR OFFICIAL USE ONLY
Table of Contents
Introduction                                                    1

      Objectives                                                1
      Background                                                1

Finding. Contracted Advisory and Assistance Services            9

      Recommendations, Management Comments, and Our Response   59

Appendices

      A. Scope and Methodology                                 64
            Prior Coverage                                     65
      B. Hotline Complaint                                     66
      C. Weapon Systems Acquisition Reform Act of 2009         69

Management Comments

      Defense Procurement and Acquisition Policy               69
      Department of the Army                                   71
      Director of Operational Test and Evaluation              78




                          FOR OFFICIAL USE ONLY
FOR OFFICIAL USE ONLY
Introduction
We initiated this audit in response to allegations made to the Defense Hotline relating to the
operational test and evaluation of the U.S. Army Future Combat Systems (FCS).
Specifically, the complainant alleged the Director of Operational Test and Evaluation
(DOT&E) inappropriately awarded a contract to the Science Applications International
Corporation (SAIC) for engineering and technical analysis support (ETAS) even though the
contractor was participating in the development of the FCS. The contract solicitation
organizational conflict of interest (OCI) clause specifically prohibited contractors that
participated in the development or production of weapon systems from submitting bids.

Objectives
The overall objective of the audit was to determine whether the same engineering and
technical analysis (services) contractors that participated in (or are participating in) the
development, production, or testing (developmental) of the FCS were also involved in the
operational testing of the systems. The scope of the audit was expanded after we
determined that SAIC was also under contract to provide advisory and assistance services
to the FCS program office and various Army test agencies. See Appendix A for a
discussion of the scope and methodology, and prior audit coverage. See Appendix B for a
detailed discussion of the hotline allegations.

Background
In an April 30, 1962, report to President John F. Kennedy on Government contracting for
Research and Development, the Director, Bureau of the Budget found that:
       Some other standards are now widely accepted – for example, the undesirability of
       permitting a firm which holds a contract for technical advisory services to seek a contract to
       develop or to supply any major item with respect to which the firm has advised the
       Government.

The report also found that:
       The management and control of such programs must be firmly in the hands of full-time
       Government officials clearly responsible to the President and the Congress. With programs
       of the size and complexity now common, this requires that the Government have on its staff
       exceptionally strong and able executives, scientists, and engineers fully qualified to weigh
       the views and advice of technical specialists, to make policy decisions concerning the types
       of work to be undertaken, when, by whom, and at what cost, to supervise the execution of
       work undertaken, and to evaluate the results.

Organizational Conflicts of Interest
Federal Acquisition Regulation (FAR) 2.101 defines the term “OCI” as:
       …because of other activities or relationships with other persons, a person is unable or
       potentially unable to render impartial assistance or advice to the Government, or the
       person’s objectivity in performing the contract work is or might be otherwise
       impaired, or a person has an unfair competitive advantage.” [emphasis added]



                                            1
                                  FOR OFFICIAL USE ONLY
According to the FAR, an “OCI” occurs when factors create an actual or potential conflict
of interest on an instant1 contract or when the nature of the work to be performed on the
contract creates an actual or potential conflict of interest on a future acquisition. In the
latter case, restrictions on future activities of the contractor may be required.

Restrictions on Contractors Providing Systems Engineering and
Technical Direction

Federal Acquisition Regulation. FAR Subpart 9.5, “Organizational and Consultant
Conflicts of Interest,” prescribes responsibilities, general rules, and procedures for
identifying, evaluating, and resolving OCIs. The general rules in FAR 9.505-1 through
9.505-4 prescribe limitations on contracting as a means of avoiding, neutralizing, or
mitigating OCIs that might otherwise exist in the stated situation. FAR 9.505-1,
“Providing systems engineering and technical direction,” places restrictions on contractors
being placed in a position to make decisions that favor their own products or capabilities.
Specifically, the section states:

           (a) A contractor that provides systems engineering and technical direction for a
           system but does not have overall contractual responsibility for its development, its
           integration, assembly, and checkout, or its production shall not—

              (1) Be awarded a contract to supply the system or any of its major components; or
              (2) Be a subcontractor or consultant to a supplier of the system or any of its major
           components.
           (b) Systems engineering includes a combination of substantially all of the following
           activities: determining specifications, identifying and resolving interface problems,
           developing test requirements, evaluating test data, and supervising design. Technical
           direction includes a combination of substantially all of the following activities: developing
           work statements, determining parameters, directing other contractors’ operations,
           and resolving technical controversies. In performing these activities, a contractor
           occupies a highly influential and responsible position in determining a system’s basic
           concepts and supervising their execution by other contractors. Therefore this contractor
           should not be in a position to make decisions favoring its own products or capabilities.
           [emphasis added]

FAR 9.508 provides some examples to illustrate situations in which questions concerning
OCI may arise. The examples are not inclusive but are intended to help contracting
officers apply the general rules in 9.505 to individual contracting situations.

In addition, FAR 9.503, “Waiver,” allows an Agency Head to waive the general rules.
Specifically, the section states:
           The agency head or a designee may waive any general rule or procedure of this subpart by
           determining that its application in a particular situation would not be in the Government’s
           interest. Any request for waiver must be in writing, shall set forth the extent of the conflict,
           and requires approval by the agency head or a designee. Agency heads shall not delegate
           waiver authority below the level of head of a contracting activity.



1
    An existing or current contract.
                                                 2
                                       FOR OFFICIAL USE ONLY
Weapons Systems Acquisition Reform Act of 2009. Section 207 of the Weapons
Systems Acquisition Reform Act of 2009, “Organizational Conflicts of Interest in Major
Defense Acquisition Programs,” May 22, 2009, requires that no later than 270 days after
the date of the enactment of this Act, the Secretary of Defense must revise the Defense
Supplement to the FAR to provide uniform guidance and strengthen existing requirements
for organizational conflicts of interest by contractors in major Defense acquisition
programs. At a minimum, the guidance must:

      address OCIs that could arise as a result of lead system integrator contracts and the
       ownership of business units performing systems engineering and technical
       assistance functions or management support services by contractors who
       simultaneously own business units competing to perform as either the contractor or
       the supplier of a major subsystem or component of a major Defense acquisition
       program,
      ensure that DoD receives advice on system architecture and systems engineering
       matters with respect to major Defense acquisition programs from federally funded
       research and development centers or other sources independent of the prime
       contractor, and
      prohibit contractors from performing systems engineering and technical assistance
       functions for a major Defense acquisition program and also participating as a prime
       contractor or major subcontractor in the development or construction of a weapons
       system.
See Appendix C for the complete text of Section 207 of the Act.

The Panel on Contracting Integrity is developing recommendations to eliminate or mitigate
OCIs in major defense acquisition programs for the Secretary of Defense’s use in preparing
the revised guidance. We briefed the panel on a draft of this report on July 9, 2009.

Restrictions on System Developers Performing Operational Test
and Evaluation
Section 2399, title 10, United States Code (10 U.S.C. Section 2399), as implemented by
Public Law 101-189, November 29, 1989, “Operational Test and Evaluation of Defense
Acquisition Programs,” places further restrictions on system developers supporting
operational test and evaluation. Specifically, the subsection (e), “Impartial Contracted
Advisory and Assistance Services,” states:

       (1) The Director may not contract with any person for advisory and assistance services with
       regard to the test and evaluation of a system if that person participated in (or is participating
       in) the development, production, or testing of such system for a military department or
       Defense Agency (or for another contractor of the department of Defense).

       (2) The Director may waive the limitation under paragraph (1) in any case if the Director
       determines in writing that sufficient steps have been taken to ensure the impartiality of the
       contractor in providing the services. The Inspector General of the Department of Defense
       shall review each waiver and shall include in the Inspector General’s semi-annual report an
       assessment of those waivers made since the last such report.

                                             3
                                   FOR OFFICIAL USE ONLY
        (3)(A) A contractor that has participated in (or is participating in) the development,
       production, or testing of a system for a military department or Defense Agency (or for
       another contractor of the Department of Defense) may not be involved (in any way) in the
       establishment of criteria for data collection, performance assessment, or evaluation
       activities for the operational test and evaluation.

To date, the Director of Operation Test and Evaluation has never sent a waiver to the
DoD Inspector General (IG).

Director of Operational Test and Evaluation
The Director of Operational Test and Evaluation is the principal staff assistant and advisor
to the Secretary and Deputy Secretary of Defense on program acquisition test and
evaluation-related matters within DoD. The Director:

      prescribes policies and procedures for the conduct of operational tests, live fire test
       and evaluations, and the composition and operations of the major ranges and test
       facility bases;
      analyzes the results of operational test and evaluation, live fire test and evaluations,
       and the test and evaluations conducted on major Defense acquisition programs; and
      coordinates operational tests conducted jointly by more than one DoD Component.

Army Test and Evaluation Command
The Army Test and Evaluation Command (ATEC) is responsible for ensuring the Army’s
warfighters go to war with weapons that work. It is the only organization within DoD to
provide full spectrum testing by overseeing both developmental and operational testing as
well as the evaluation of test data. It operates through three fully integrated major
subordinate commands: the Army Developmental Test Command (DTC), the Army
Operational Test Command (OTC), and the Army Evaluation Center (AEC).

      DTC plans, conducts, and reports on developmental, production, and live fire tests
       across the full spectrum of environments; verifies military systems safety; develops
       and procures new test technology, test instrumentation, and related models and
       simulations; and manages the mission elements at assigned test centers.

      OTC plans and conducts independent operational testing and experiments of
       acquisition systems operated by representative users in a realistic operational
       environment in order to provide essential information to the decisionmaking
       process on a system’s operational effectiveness, suitability, and survivability.

      AEC plans and conducts independent evaluations and assessments of acquisition
       programs; develops the evaluation strategy, test design, and evaluations addressing
       operational effectiveness, suitability, and survivability; and provides evaluation
       information to decisionmakers for equipping and sustaining the total force.



                                          4
                                FOR OFFICIAL USE ONLY
The command emphasizes conducting developmental and operational testing
simultaneously to become more value-added to today’s war effort by saving time in
providing test data and analysis to senior decisionmakers. With that goal in mind, ATEC
establishes combined test organizations to integrate the developmental and operational test
planning for each weapon system, share test resources, and minimize the duplication and
time required to execute the testing of a weapon system.

Future Combat Systems Vision
In October 1999, the Secretary of the Army and the Chief of Staff of the Army outlined a
vision designed to posture the Army to better meet the demands of the 21st Century. The
U.S. Army Transformation Campaign Plan defined the vision in December 1999. The goal
of U.S. Army transformation is the creation of a strategically responsive, precision
maneuver force that achieves dominance across the full range of military land operations in
any future conflict.

The foundation of this future force is a maneuver brigade combat team equipped with the
FCS. FCS will operate as a system that networks existing systems, systems already under
development, and new systems to be developed to meet the requirements of the Army’s
future force brigade combat team. FCS will be capable of conducting a wide range of
military activities and operations, such as deterring large-scale aggression, participating in
small-scale contingencies, and dealing with asymmetric threats like terrorism, information
operations, and nuclear, biological, or chemical environments. The FCS will be lighter and
more transportable and deployable with characteristics that will enable the force to be
anywhere on the globe within 36-48 hours and be capable of conducting operations
(without pause for preparation) to dominate and defeat a mission-based threat. Further, an
FCS-equipped brigade combat team will be capable of fighting in all environments, day or
night, and in any weather conditions and of operating in complex urban terrain including
negotiating barricades, roadblocks, city rubble, man-made and natural craters, and narrow
passages.

Concept Design and Technology Development
On May 9, 2000, the Defense Advanced Research Projects Agency and the Army entered
into Other Transaction Agreements, in accordance with Section 845 of the 1994 National
Defense Authorization Act, Public Law 103-160, as amended, with four industry teams,2 to
create the revolutionary ground force outlined in the Defense Planning Guidance for
FY 2000 through 2005. During this phase of the program, the technological concepts and
solutions for the Army’s Objective Force were developed. The Defense Advanced
Research Projects Agency and the Army competed system design ideas and evaluated and
selected key promising combat vehicle technologies, such as lethality, propulsion, mobility,
survivability, robotics, ergonomic, and Command, Control, Communications, Computers,
Intelligence, Surveillance, and Reconnaissance (C4ISR) technologies for inclusion into


2
 The Boeing Company, Team Gladiator (TRW and Lockheed Martin), Team Full Spectrum (SAIC, United
Defense, L.P., ITT, and Northrop Grumman), and Team Focus Vision (General Dynamics Land Systems,
Raytheon, and Honeywell).

                                          5
                                FOR OFFICIAL USE ONLY
potential combat vehicle platforms and production of the selected system of systems
prototype.

In January 2002, The Boeing Company (Boeing) and SAIC entered into an agreement to
jointly pursue the contract to develop FCS because their senior management felt that
together they could offer the Government the best solution for FCS, and thus, had a higher
probability of being selected to develop the system. On March 14, 2002, the Defense
Advanced Research Projects Agency awarded Other Transaction Agreement MDA972-02-
9-0005 to The Boeing Company, and its industry teammate, SAIC to serve as the Army’s
Lead Systems Integrator (LSI) for the FCS Program. The selection ended the concept
design phase during which the four industry teams developed the innovative concepts used
to refine the draft requirements for the FCS. Under this agreement, the Boeing-SAIC team
entered into an alliance with the Government to develop, manage, and execute all aspects
of the FCS Program through concept and technology development. This included
developing the architecture for the system of systems envisioned for the FCS, identifying
and evaluating potential concepts and technologies, conducting demonstrations and
selecting the most promising efforts for further definition, and developing and
implementing an integrated test and evaluation program. The agreement also included an
option for the system development and demonstration phase of the program.

System Development and Demonstration
On May 30, 2003, the U.S. Army TACOM Life Cycle Management Command (then
known as the U.S. Army Tank-Automotive and Armaments Command) entered into Other
Transaction Agreement DAAE07-03-9-F001 with the Boeing-SAIC team to exercise the
option included in the concept and technology development agreement. Under this
agreement, the Boeing-SAIC team continued executing the program tasks for Increment I
of the system development and demonstration phase of the FCS Program. On August 6,
2004, the Army modified the system development and demonstration phase agreement to
require the Boeing-SAIC LSI team to also introduce the FCS capabilities into the current
force as the capabilities of the program were developed, as opposed to delivering them at
contract completion. On September 30, 2005, the TACOM Life Cycle Management
Command converted the other transaction agreement into a FAR-based contract
(contract W56HZV-05-C-0724).




                                       6
                             FOR OFFICIAL USE ONLY
As shown in Figure 1, the FCS was composed of a family of 14 advanced manned and
unmanned air- and ground-based maneuver, maneuver-support, and sustainment systems3
interconnected through a networked battle command architecture. FCS includes unmanned
aerial and ground vehicles, unattended sensors and rockets, manned vehicles, and a
network that links all systems together.




Figure 1. The Future Combat Systems

The FCS was estimated to cost about $159 billion over the life of the program.



3
 Eight manned ground vehicles, two classes of unmanned ground vehicles, two classes of unmanned aerial
vehicles, unattended tactical and urban ground sensors, and a non-line-of-sight launch system.
                                            7
                                  FOR OFFICIAL USE ONLY
Table 1 identifies the Boeing-SAIC System Development and Design team and identifies
the scope of work that each team member is responsible for.

                 Table 1. FCS System Development and Design Team
   Contractor                                             Work Scope

   Boeing-SAIC                     Lead System Integrators
   BAE Systems                     Armed Robotic Vehicle, Manned Ground Vehicles, Air &
                                   Ground Communication Integration
   General Dynamics                Manned Ground Vehicles, Autonomous Navigation System,
                                   Sensor Data Management, Integrated Computer System
   iROBOT                          Small Unmanned Ground Vehicle
   Lockheed Martin                 Centralized Controller, Armed Robotic Vehicle,
                                   Multifunctional Utility/Logistics & Equipment vehicles, Non-
                                   Line-of-Sight Launch System, Training Instrumentation
                                   Architecture
   Northrop Grumman                Class IV Unmanned Aerial Vehicle, Logistics Decision
                                   Support System, Network Management System
   Honeywell International Inc     Class I Unmanned Aerial Vehicle, Soldier Mission Readiness
                                   System
   Textron Systems                 Unattended Ground Sensors and Tactical and Urban Ground
                                   Sensors
   Raytheon                        Ground Sensor Integration, Non-Line-of-Sight Launch
                                   System, Battle Command & Mission Execution
   Computer Sciences Corporation   Training Support Package
   Dynamics Research               Training Support Package
   Corporation
   IBM                             Logistics Data Management System
   Overwatch Systems               Situational Understanding

Revised FCS Program
As a result of strategic decisions in formulating the Defense portion of the FY 2010
President’s Budget, the Under Secretary of Defense canceled the FCS Brigade Combat
Team Acquisition Program. In its place, the Under Secretary directed the Army to
transition its modernization plan to a plan consisting of a number of integrated acquisition
programs, including:

      One program to produce and field the first seven Spin-Out Early Infantry Brigade
       Combat Team unit sets;

      One or more major defense acquisition programs to include a major Defense
       acquisition program for follow-on brigade combat team modernization to develop,
       produce, and field required unmanned systems, sensors, and networking for the
       remaining combat brigades;

      One major Defense acquisition program to continue developing and fielding
       incremental ground tactical network capability; and

      Another major Defense acquisition program to develop ground combat vehicles.
                                           8
                                 FOR OFFICIAL USE ONLY
Finding. Contracted Advisory and Assistance
Services
DOT&E, the FCS Program Office, and the Army test agencies frequently used the same
services contractors for advisory and assistance services4 that were developing the FCS. In
FY 2007, five services contractors were paid about $91.0 million for advisory and
assistance services. Those contractors were also paid about $8.7 billion to develop the
FCS. This occurred because:

             •   solicitation provisions and contract clauses used to prevent contractors from
                 providing advisory and assistance services for systems they helped develop
                 or produce were inadequate and ineffective, and contractor disclosures of
                 potential OCIs were vague;

             •   Government contracting agencies’ technical evaluations of potential OCIs
                 were not effective, waiver requests were not submitted when conflicts
                 existed, and waiver requests and decisions were not included in contract
                 files; and

             •   policies, procedures, and internal control changes recommended in
                 DoD Inspector General Report No. 91-115, “Consulting Services Contracts
                 for Operational Test and Evaluation,” August 22, 1991, related to OCIs and
                 the extensive use of services contracts were never fully implemented.

As a result, DOT&E and the Army have not exercised the good judgment and sound
discretion needed to prevent the existence of conflicting roles that might bias a contractor’s
judgment or provide an unfair competitive advantage, as required by 10 U.S.C. 2399,
“Operational Test and Evaluation of Defense Acquisition Programs,” and FAR
Subpart 9.505-1, “Providing Systems Engineering and Technical Direction.”

Contracting Officers’ Responsibility for Avoiding OCIs
FAR Subpart 9.5 directs contracting officers to take measures to detect and avoid or
neutralize actual and potential OCIs. Specifically, FAR Subpart 9.504, “Contracting
Officer Responsibilities,” states that:
        (a) Using the general rules, procedures, and examples in this subpart contracting officers
        shall analyze planned acquisitions in order to —



4
  FAR Subpart 2.101 defines “advisory and assistance services” as those services provided under contract by
nongovernmental sources to support or improve organizational policy development, decisionmaking,
management and administration, program and/or project management and administration, or research and
development activities. Advisory and assistance services can also mean the furnishing of professional advice
or assistance rendered to improve the effectiveness of Federal management processes or procedures and are
classified into one of the following definitional subdivisions: management and professional support services,
studies, analyses and evaluations, or engineering and technical services.

                                              9
                                    FOR OFFICIAL USE ONLY
        (1) Identify and evaluate potential organizational conflicts of interest as early in the
       acquisition process as possible; and
       (2) Avoid, neutralize, or mitigate significant potential conflicts before contract award.

       (b) Contracting officers should obtain the advice of counsel and the assistance of
       appropriate technical specialists in evaluating potential conflicts and in developing any
       necessary solicitation provisions and contract clauses.
                           .       .        .         .        .      .        .
       (d) In fulfilling their responsibilities for identifying and resolving potential conflicts,
       contracting officers should avoid creating unnecessary delays, burdensome information
       requirements, and excessive documentation. The contracting officer’s judgment need be
       formally documented only when a substantive issue concerning potential organizational
       conflict of interest exists.

        (e) The contracting officer shall award the contract to the apparent successful offeror
       unless a conflict of interest is determined to exist that cannot be avoided or mitigated.
       Before determining to withhold award based on conflict of interest considerations, the
       contracting officer shall notify the contractor, provide the reasons therefor, and allow the
       contractor a reasonable opportunity to respond. If the contracting officer finds that it is in
       the best interest of the United States to award the contract notwithstanding a conflict of
       interest, a request for waiver shall be submitted in accordance with 9.503. The waiver
       request and decision shall be included in the contract file.

In addition, FAR Subpart 9.505, “General Rules,” states:
       Conflicts may arise in situations not expressly covered by contracting limitations prescribed
       in [FAR Subpart] 9.505 or in the examples in [FAR Subpart] 9.508. Each individual
       contracting situation should be examined on the basis of its particular facts and the nature
       of the proposed contract. The exercise of common sense, good judgment, and sound
       discretion is required in both the decision on whether a significant potential conflict exists,
       and, if it does, the development of the appropriate means for resolving it. The two
       underlying principles are—

               preventing the existence of conflicting roles that bias a contractor’s judgment and
               preventing unfair competitive advantage.



Developing a System and Providing Advisory and
Assistance Services
DOT&E, the FCS Program Office, and the Army test agencies frequently used the same
contractors for systems engineering and technical direction and advisory and assistance
services that were developing the FCS.




                                             10
                                   FOR OFFICIAL USE ONLY
As Table 2 shows, five services contractors received an estimated $91.0 million in funding
during FY 2007 for advisory and assistance services that also received an estimated
$8.7 billion to develop the FCS.


   Table 2. Amount of Funding Received by Contractors Supporting the Development,
         Program Management, and Operational Testing and Evaluation of FCS
                                                               (in millions)

                                                         Northrop                              General          Lockheed
                                                                                     1
                                           SAIC          Grumman              CSC             Dynamics           Martin              Total
  System Development
    System Design and
    Development Contract                  $2,258.7         $1,755.5               $54.0         $3,981.1            $648.0          $8,697.3

  Advisory and Assistance
    Services
    FCS PO                                       1.8                                                                                     1.8
                                                                        2                 2                                     2
    Army DTC                                    0.6               1.3               7.6                                   4.0          13.5
     Subtotal                                  $2.4              $1.3              $7.6              $0.0                $4.0         $15.3
  OT&E Related
    DOT&E                                      17.5                                                                                     17.5
    ATEC                                        0.8                                                                                      0.8
                                                                                          3
    Army OTC                                                                       42.0                7.0                             49.0
    AEC                                         5.1               3.3                                                                   8.4
     Subtotal                                 $23.4              $3.3             $42.0              $7.0                $0.0         $75.7

        Total Services                        $25.8              $4.6             $49.6              $7.0                $4.0         $91.0

1 Computer Sciences Corporation.

2 Northrop Grumman, CSC, and Lockheed Martin provide support to DTC through their New Mexico Technology Group
  joint venture. Per the terms of their joint venture agreement, all three companies share in the profits derived from
  company. In FY 2007, the group

3 CSC support to OTC through its Test and Experimentation Services Company joint venture. In 2007, the Test
  and Experimentation Services Company
  According to OTC, CSC's partner, Electronic Warfare Associates, performs the work and receives all the profits
  for FCS-related work.


Solicitation provisions and contract clauses used to prevent contractors from providing
advisory and assistance services for systems they helped develop or produce were
inadequate and ineffective, and contractor disclosures of potential OCIs were vague.
Government contracting agencies’ technical evaluations of potential OCIs were also not
effective; waiver requests were not submitted when conflicts existed; and therefore, waiver
requests and decisions were not included in contract files.




                                                        11
                                              FOR OFFICIAL USE ONLY
SAIC
During 2007, SAIC was under contract to help develop FCS, as well as to provide advisory
and assistance services to the FCS Program Office, a number of the U.S. Army test
commands, and DOT&E.

FCS Development
SAIC received an estimated $2.3 billion for the work it performed to support
FCS developmental activities. SAIC and its industry teammate, Boeing, serve as the LSI
for the FCS program. Per the terms of its subcontract, SAIC provides support across the
broad spectrum of LSI tasks. These include managing and administering a number of the
program’s major subcontracts, helping develop the architecture for the system of systems
envisioned for the FCS, assisting in identifying and evaluating potential concepts and
technologies, and conducting demonstrations and helping select the most promising efforts
for further definition. SAIC is also helping the Army develop, manage, and execute all
aspects of the FCS program to include performing the necessary program and engineering
management activities, implementing the system of systems requirements into the
networked family of systems, and coordinating and performing integrated family of
systems and system of systems demonstration and test planning, execution, and evaluation.
SAIC’s responsibilities constitute about     percent of overall work effort for the FCS
program.

Providing Advisory and Assistance Services
FCS Program Office
SAIC also provided advisory and assistance services related to FCS through four other
contract actions that the FCS Program Office funded. The FY 2007 funding for the
contract actions was $1.8 million.

Support Provided Through the AMCOM Express Blanket Purchase Agreement.
SAIC provided advisory and assistance services related to FCS under three task orders
issued against the AMCOM Express Blanket Purchase Agreement (BPA) W31P4Q-05-A-
0031.

Task Order 3: Under Task Order 3 of the BPA, the FCS Program Office funded work
related to system safety, safety of flight, and accident findings and recommendations
response functions of the AMCOM Safety Office. Specifically, SAIC was assigned to
provide personnel to manage and execute various tasks including:
       2.4. Safety Risk Assessments. The contractor shall evaluate system safety issues defined
       by the COR [Contracting Officer Representative] and provide safety risk assessment based
       upon the current and expected condition, and provide alternatives for risk reduction or
       elimination. At the direction of the COR the Contractor shall analyze and consolidate
       residual hazards and attendant System Safety Risk Assessments for input into Manpower
       and Personnel Integration (MANPRINT) System Safety domain reports.




                                          12
                                FOR OFFICIAL USE ONLY
Task Order 5: Under Task Order 5 of the BPA, the FCS Program Office funded work
related to system engineering and test support for the unmanned aerial vehicles and the
non-line-of-sight launch system (NLOS-LS), FCS missile server support and maintenance,
and Command Control Collaborative Environment data verification and network support.
For example, Modification 69 added funding for SAIC to perform the following tasks
under Technical Instruction S137044, “Systems Engineering and Test Support for
Unmanned Aerial Systems:”
       3.1 The contractor shall provide systems analysis and technical recommendations for the
       purpose of resolving conflicts identified during requirements analysis, decomposing
       functional requirements and allocating performance requirements during functional
       analysis, evaluating the effectiveness of alternative design solutions and selecting the best
       design solution during synthesis, assessing systems effectiveness, and managing risk factors
       throughout the systems engineering effort and product life cycle.

       3.2 The contractor shall support the UAVS developmental and operational demonstration,
       test and evaluation, including flight testing. The contractor shall assist in the development
       of test plans; execution of test programs; collection and analyses of systems performance
       data, and reporting of data, including conclusions and recommendations.

In addition, Modification 90 added funding for SAIC to perform the following tasks under
Technical Instruction S137063, “FCS Missile Server support and Maintenance:”
       3.0 Scope: The contractor shall provide the following services in support of the
       AMRDEC’s [U.S. Army Aviation and Missile Command Research, Development, and
       Engineering Center’s] System Simulation and Development Directorate (SSDD):

       3.1 Collaborate with M-IT at Fort Belvoir to maintain awareness of and participate in
       MATREX integration activities.

       3.2 Provide electronic deliveries of the Missile Server federated software needed to satisfy
       FCS software requirements specification for the Missile Server component and in support
       of MATREX integration and testing activities.

       3.3 Perform Missile Server software debugging and troubleshooting in support of
       MATREX integration activities.

       3.4 Research the usage of the xTCRS terrain approach and provide the long lead time and
       effort support costs to the LSI as preparation work in compliant with the terrain effort and
       compatibility.

In addition, Modification 92 added funding for SAIC to perform the following tasks under
Technical Instruction S167027, “NLOS-LS:”
       3.0 Scope: The contractor shall provide the following services in support of the
       AMRDEC’s System Simulation and Development Directorate (SSDD):

       3.1 Evaluate available models for the NLOS-LS [Non-Line-of-Sight Launch System] with
       the PAM (based on Government-furnished information about those models) to identify
       which is best suited for integration and OneSAF to meet the requirements of expected uses.

       3.2 Coordinate with PM NLOS-LS and their technical staff to integrate the identified model
       for the NLOS-LS system with PAM into OneSAF.


                                            13
                                  FOR OFFICIAL USE ONLY
       3.3 Coordinate with PM NLOS-LS and their technical staff to support external M&S
       activities, including but not limited to the Redstone Technical Test Center (RTTC).
       Continue to advocate for the proper NLOS-LS representation within RDECOM initiatives
       such as MATREX.

       3.4 Coordinate with other contractors to optimize high fidelity simulation representations
       with regard to system performance, operational reality, and tactical credibility for the
       NLOS-LS system with the PAM.

Task Order 8: Under Task Order 8 of the BPA, the FCS Program Office funded systems
engineering and computer resource engineering support conducted by the U.S. Army
Research, Development, and Engineering Command’s Software Engineering Directorate.
For example, Modification B8 added funding for SAIC to perform the following tasks
under Technical Instruction 017-6D, “NLOS [Non-Line-of-Sight] Software Engineering
Support:”
       The contractor shall provide the following services for the NLOS Software Engineering
       Support effort:

       1. This effort will consist of systems and software engineering support. Provide
       representation for all project office and prime contractor working groups, reviews,
       configuration control boards, meetings, test events and audits. Participate in the
       development of concept, installation and test of hardware for the NLOS-LS.

       2. The contractor shall provide non-system specific software support which will consist of
       software development, system facilities assessments and analysis, systems and
       hardware/software analysis, and automated tools that will improve software development
       productivity. The contractor shall participate in any and all software process improvement
       activities conducted at the Software Engineering Directorate.

       3. The contractor shall provide resolution to computer resource LCSE issues, provide
       software engineering support, and perform technical evaluations and studies associated with
       non-system specific LCSE application including Information Assurance (IA) support.

In addition, Modification BH added funding for SAIC to perform the following tasks under
Technical Instruction 0117-7A, “NLOS-LS:”

       Under this task, the contractor will perform the following activities to ensure that the
       NLOS-LS system meets all applicable interoperability and information assurance
       requirements when communicating within FCS or current force environments and that
       troop are sufficiently trained in the operation of NLOS-LS and the command and control
       systems used to direct NLOS-LS.

              Develop Operational Architectures in the OV, TV, SV and AV formats to support
               NR-KPP.
              Develop Information Support Plan to support NR-KPP.
              Maintain Interface Control Document (ICD)
              Update Interface Control Document to incorporate SOSCOE and XML data
               exchange library
              Write/Update/Maintain NLOS-LS Tactics, Techniques and Procedures
              Support Interoperability Working Groups
              Represent PM NLOS-LS at VMF subgroup and major forums.
              Develop VMF Interface Change Proposals for SWB based on increased system
               capabilities

                                           14
                                 FOR OFFICIAL USE ONLY
              Submit and represent PM NLOS-LS at VMF Software Configuration Control
               Boards
              Review NLOS-LS related FCS documents such as the IRD and IRS for PM
               NLOS-LS
              Review SOSCOE requirements for NLOS-LS needed Information Exchange
               Requirements
              Develop test cases and execute test plans based on define architectures and
               functionality
              Exercise Operational Architectures in the SMART lab to validate proper
               implementation of requirements in FOS, AFATDS, CLU and PAM software.
              Provide SME support during live fire testing with AFATDS/Control Cell support
              Develop I&KP / NET training for leaders and AFATDS operators and conduct
               training.
              Provide members for NET teams during initial HBCT/IBCT fielding
              Support milestone decisions with required Information Assurance and software
               accreditation documentation.
              Support the writing of waivers and documents to support material release for
               system of systems.
              Support doctrinal exercises with troops to support material release and assessments
               for DOT&E
              Act as PM NLOS-LS IV&V for NLOS-LS C2 requirement testing
              Support IOT&E training and ramp up testing
              Provide SME support and training for Ground and Flight LUT
              Support FCS experiments and simulations

In addition, Modification BR added funding for SAIC to perform the following tasks under
Technical Instruction 95-7A, “FCS SW [Software] Support:”
       1. Contractor support shall be provided to the FCS program with specific emphasis on
       software development, modeling and simulation (M&S), and software integration and test
       activities at the system of system (SoS) level.

       2. The contractor shall support the program by performing technical assessments of
       software requirements, software processes, software documentation, and related technical
       data.

       3. The contractor shall work to identify gaps and issues in respect to the planning and
       execution of the FCS program. This will be accomplished through the assessment of
       program and software development schedules. Once these gaps are identified the
       contractor shall identify possible solutions and make recommendations for their resolution.
                           .        .        .        .        .     .        .
       5. The contractor shall perform analyses and assessments of software Interface
       requirements Specifications (IRS) and Interface Design Documents (IDD) to identify the
       problems associated with FCS interfaces.

In addition, Modification BT added funding for SAIC to perform the following tasks under
Technical Instruction 0172-7A, “AMRDEC [Aviation and Missile Research Development
and Engineering Center] Future Force S&T Planning:”

       The Contractor shall provide experienced senior technical support and consultation to the
       SED in support of the Aviation and Missile Research Development and Engineering Center
       (AMRDEC) in the areas of Aviation, Missile and Unmanned Systems technology (S&T)
       plans and roadmaps; future joint operational capabilities projections and gap assessments,

                                           15
                                 FOR OFFICIAL USE ONLY
user requirements; system studies and analyses required to define and defend research
plans; coordination of research initiatives and tenets with US Army requirements
developers, materiel developers, and senior executives throughout the Joint and Army S&T
communities; workgroups, committees, IPTs, and “Greybeard” panels that initiate, plan,
coordinate, critique and/or execute S&T opportunities, investment strategies/partnerships,
and technical approaches; development and analysis of system performance specifications;
and subject matter expertise on senior science and technology boards that cut across Army
and Joint Service roles, missions, and requirements. The contractor shall leverage existing
relationships with Users, S&T, requirements and materiel developer personnel and
organizations to advise and support the AMRDEC in the planning, defense, and execution
of its S&T mission. The contractor must have detailed familiarity with ongoing and
planned AMRDEC programs and personnel to facilitate the communication and
coordination required. The contractor shall support tasks such as unmanned systems
technology transition to the warfighter, future system development functional area analysis,
functional need analysis, functional solution analysis, mission need assessment and
determination, requirements analysis, system concept design studies, cost-performance
tradeoff analysis, analysis of alternative solutions, feasibility analysis, regulatory
compliance support, staff training and professional development, privatizations and
outsourcing. (CDRL A002)

The following specific tasks shall be conducted.

Provide liaison to and work with operational units such as SOCOM HQ, XVIII Airborne
Corps (Ft Bragg) and III Corps as well as Army Training and Doctrine Command
(TRADOC) organizations, particularly Ft Benning and Ft Rucker, Ft Bliss and Ft Sill to
define, plan, coordinate, prepare, and/or review technical and programmatic documents
required to create, establish, justify, and conduct Future Force oriented advanced S&T
initiatives/programs for the purpose of determining feasibility of advanced system
technology concepts and associated warfighting capabilities with the objective of
transitioning technology to the warfighter as quickly as possible. (CDRL A002)

Through such liaison and coordination, assist in developing future science and technology
initiatives that have clear linkage to warfighting requirements and Force Operating
Capabilities and support activities that assure that these requirements accurately influence
science and technology funding for Small Business Innovative Research (SBIR) topics,
Advanced Technology Objectives (ATOs), Advanced Technology Demonstrations (ATDs),
and Advanced Concept Technology Demonstrations (ACTDs). The contractor shall
facilitate or assist in frequent coordination between AMRDEC offices and staff and the
appropriate TRADOC Directorates for Combat Development, Battle Labs and HQ
TRADOC staff to synchronize/harmonize their linkage. Coordination shall include
attendance at meetings, reviews and demonstrations. The contractor shall review ongoing
AMRDEC technology programs for relevance to user needs in order to focus priority on
those programs most likely to have the earliest and greatest impact on deploying units’ war
fighting capability.

Provide staff support to the SED in the development of overall S&T strategy and program
concepts to ensure near-term as well as strategic planning is commensurate with and
sufficient to meet the Army’s Force Operating Capabilities (FOCs) and/or Future Army and
Joint Force capabilities. Specific near-term initiatives include, but are not necessarily
limited to: “Smaller, Lighter and Cheaper” Missile initiatives, Unmanned System Initiative
(USI), future Army and Joint Missile or Directed Energy weapons, aerial system
survivability/active protection and integrated lethality/survivability suite developments, and
unmanned system operations/teaming including weaponization and remote, collaborative
engagements. The range of support will cover both Aviation and Missile S&T and
associated technology transition to the PEO/PM. Support shall also include evaluation of
reports, and technical and administrative support for these initiatives.

                                     16
                           FOR OFFICIAL USE ONLY
In addition, Modification CE added funding for SAIC to perform the following tasks under
Technical Instruction 0395-7A, “SOSCOE [System of Systems Common Operating
Environment] Sustainment Planning:”
        2. Assigned Task: Under this task, the contractor shall produce and deliver a report that
        provides specific recommendations and strategies for the wider deployment, and life cycle
        sustainment of FCS SOSCOE [System of Systems Common Operating Environment]
        across existing and planned Army systems. The report shall provide an initial assessment
        of which existing and planned Army system are potential candidates for SOSCOE
        deployment.

OCI Solicitation and Contract Clause. To obtain unbiased technical support, AMCOM
incorporated the following OCI clause in the solicitation issued for the AMCOM Express
BPA.
          (b) The parties hereto recognize that performance of such services creates potential
          organizational conflicts of interest as addressed in Federal Acquisition Regulation Subpart
          9.5, Organizational and Consultant Conflicts of Interest. It is the intention of the parties
          that the contractor shall not engage in any contractual activities which could cause a
          conflict of interest with its position under this blanket purchase agreement which may
          impair its ability to render unbiased advice and recommendations or in which it may have
          an unfair competitive advantage as a result of the knowledge, information, and experience
          gained during the performance of this blanket purchase agreement.

The clause language made it clear that the Government did not want the contractor it used
to fulfill the BPA’s requirements from engaging in activities that could impair the
contractor’s ability to render unbiased advice and recommendations or give it an unfair
competitive advantage as a result of the knowledge, information, and experience gained
during the performance of the BPA. The clause also contained the following passage that
required potential offerors to self-identify any relevant facts that might diminish their
capacity to give impartial, technically sound, and objective assistance and advice or that
could result in providing them an unfair competitive advantage relative to the work
performed under the blanket purchasing agreement and again with any proposal submitted
in response to any task order requests for quotation.5

        (c) The contractor shall identify all relevant facts concerning any past, present or planned
        interest (financial, contractual, organizational, or otherwise as contractor, subcontractor, or
        consultant) relating to the work to be performed under the blanket purchase agreement and
        bearing on whether the offeror has a possible conflict of interest with respect to being able
        to render impartial, technically sound, and objective assistance or advice, or being given an
        unfair competitive advantage. In the absence of any such interest, the contractor shall
        submit a written statement which represents to the best of its knowledge and belief that it
        does not presently have any organizational conflict of interest which would diminish its
        capacity to give impartial, technically sound and objective assistance and advice or would
        result in a biased work product or may result in an unfair competitive advantage. A list of
        categories and representative examples of Aviation Missile Command/Program Execute
        Office missions covered by the blanket purchase agreement is set forth at Attachment 02. It


5
  The BPA included two attachments that provided potential offerors a high-level overview of the command’s
technical support requirements and provided a current list of categories and representative examples of the
Army missions that potential offerors may be tasked to support. The NLOS-LS was identified as one of the
Army missions that potential offerors may be tasked to support.
                                              17
                                    FOR OFFICIAL USE ONLY
       is the contractor's responsibility to identify to the Government any contracts they possess
       for these systems as a prime contractor, as a subcontractor, or as a consultant with either the
       weapon system prime contractor or major subcontractor.
                           .       .          .        .       .        .        .
        (m) The contractor shall include in any response to a task order request for quotation issued
       pursuant to this BPA, information concerning any work or contracts the contractor has been
       involved in during the past three (3) years, whether as a prime contractor, subcontractor, or
       consultant, relative to the categories and representative examples of Aviation and Missile
       Command/Program Executive Office missions set forth at Attachment 02, in order to
       ensure that no task order will be issued to a contractor where such past work would create
       an actual or potential conflict of interest.

OCI Disclosure and Government Evaluation. SAIC included the following passage in
the proposal it submitted to fulfill the technical requirements outlined in the solicitation for
the AMCOM Express BPA:
       PPI 13: Describe concisely all relevant facts concerning any past, present, or planned
       interests relating to the work to be performed. We have validated that no SAIC
       organization, and no Team Member or Subcontractor on the SAIC Express Team, has any
       past, present, or planned Conflict of Interest or unfair competitive advantage with respect to
       the services to be provided under this BPA.

The SAIC BPA proposal also contained the following statement:
       Should any actual, potential, or perceived conflict of interest be identified, we work with all
       involved parties to develop a mitigation plan for AMCOM review and approval. Should
       the mitigation plan not be approved, we neutralize the conflict through (1) direct award to a
       Team Member, (2) subcontracting all work to a Teammate (SAIC retains TO lead), or (3)
       not bidding the TORFQ [task order request for quotation] opportunity. For all TORFQs
       (whether or not a conflict exists), SAIC requests participating Team Members and
       Subcontractors to submit OCI disclosures and certifications.

In addition, the cover letters that the SAIC Contracts Manager used to submit the
company’s quotations for Task Orders 3, 5, and 8 included the following statements:
                                               Task Order 3

       No Organizational Conflicts of Interest (OCIs) exists and our OCI Certificate has been
       provided in accordance with proposal instructions.

                                            Task Orders 5 and 8

       No Organizational Conflicts of Interest (OCIs) exist and the OCI Certifications for SAIC
       and all our teammates are provided in accordance with TORFQ Instructions.

We discussed the disclosures with representatives from SAIC. They indicated the
descriptions of the work contained in the BPA and task orders were too broad for their
company to reasonably conclude that it possessed any OCI with respect to the tasks being
performed under the three task orders. They further stated that SAIC was not in a position
to tell whether it had an actual OCI with the work being performed until after the technical
instructions were issued by the contract officer to provide the details for the specific tasks
to be performed under the orders. In addition, we did not find any documentation to
support that any of the contracting officers for the AMCOM Express task orders conducted
                                              18
                                FOR OFFICIAL USE ONLY
independent evaluations on their own at any point in the process to determine if potential
issues existed that would hinder SAIC’s ability to provide advisory and assistance services
related to FCS-related systems. As a result, FCS Program Office personnel stated they
were unaware that some of the scopes of work that AMCOM awarded to SAIC on the
command’s behalf under AMCOM Express BPA W31P4Q-05-A-0031 Task Orders 3, 5,
and 8 were related to the FCS Program.

Support Provided Through the U.S. Army Tank-Automotive and Armaments
Command – Armaments, Research, and Development Center. SAIC also provided
systems engineering support related to FCS under a task order issued against Contract
W15QKN-04-D-0001. The contract was issued to acquire the full range of consulting,
analytical, software, and hardware services for the U.S. Army Tank-Automotive and
Armaments Command’s Armaments, Research, and Development Center; as well as the
program management offices headquartered at Picatinny Arsenal, New Jersey.

Task Order 9. Under Task Order 9, SAIC provided systems engineering support to the
program management element responsible for the FCS Lethality. The Program Manager
for FCS Lethality is responsible for the Lethality Integrated Product Team (IPT), multiple
manned ground vehicle variants, and their associated complimentary programs. The
following was identified in the task order as one of the tasks to be performed during the
performance of the task order:
       3.3 Risk Management through Test and Evaluation (T&E)

       3.3.1 The contractor shall assist the PM in assessing program risk management through
       evaluation of proper T&E management.

       Measure – The contractor shall (1) evaluate FCS contractor/government Test and
       Evaluation Strategies developed through the [Test and Evaluation] integrated product team
       and the program Test [and] Evaluation Master Plan (TEMP); (2) Evaluation of key test
       related FCS documents (Phase Plans, ITEP, Data Management Plans); (3) Evaluation of
       FCS Contractor Test Plans and Reports.

       3.3.2 The contractor shall support Combined Test Organization (CTO) meetings and
       Integrated Systems Test IPT meetings

       Measure – The contractor shall attend or participate in CTO and IS&T [Integrated System
       Test] meetings through attendance or Webex and will express the views interests and
       concerns of the PM Lethality Test Manager
       .
OCI Solicitation and Contract Clause. The solicitation that the U.S. Army Tank-
Automotive and Armaments Command’s Armaments, Research, and Development Center
used to request proposals from contractors interested in fulfilling the command’s
consulting, analytical, software, and hardware services requirements contained the
following clause addressing prospective offerors’ OCIs.
         Upon receipt of this purchaser order, the contractor shall conduct a review of actual or
         potential Organization Conflict of Interest [OC of I] as defined in and within the meaning




                                           19
                                 FOR OFFICIAL USE ONLY
          of FAR 9.505 General Rules. If in the opinion of the Contractor no OC of I exists, the
          Contractor shall so notify the Contracting Officer (and provide justification in support of
          its opinion). If in the opinion of the Contractor the performance of work under this
          purchase order will involve an actual or potential OC of I, the Contractor shall notify the
          Contracting Officer and provide justification in support of its opinion. In either event the
          Contracting Officer will determine whether a task does involve an [OCI]. If the
          Contracting Officer determines that an OC of I exists, the Contractor/Subcontractor shall
          not perform said order unless the parties agree to the restrictions imposed by FAR 9.505
          General Rules. The contractor shall require any Subcontractor that performs any work
          relative to this purchase order to comply with this requirement.

The OCI clause indicates that the Government did not want a contractor with potential
OCIs to perform the scope of work covered by the contract unless the parties agree to the
restrictions imposed by FAR Subpart 9.505’s general rules.

OCI Disclosure and Government Evaluation. SAIC did not address OCIs in the
proposal it submitted for contract W15KN-04-D-0001. Further, we were unable to
determine how the contracting officer concluded that no potential issues existed that would
hinder SAIC’s ability to provide the advisory and assistance services related to the overall
contract or the specific scope of work SAIC performed under Task Order 9. There was no
documentation in the contracting file to indicate how the issue was addressed. We
discussed the lack of disclosure with representatives from SAIC. They stated that the
Government knew about the situation and the specific tasks being performed. They also
stated that the command also used other system developers to perform the tasks and that it
was the group’s opinion that an individual company’s influence would be cancelled out by
those of the other companies.



A contractor that provides systems engineering and technical direction for a
system shall not be awarded a contract to supply the system or any of its major
components or be a subcontractor or consultant to a supplier of the system or
any of its major components. (FAR Subpart 9.505-1, “Providing systems engineering and
technical direction”)



The FCS Program Office needs to discontinue obtaining advisory and assistance services
from SAIC, an FCS developer, unless a waiver is obtained from the agency head, and the
waiver request and decision are included in the contract file.

Developmental Test Command
DTC also funded two other contract actions with SAIC for advisory and assistance services
related to the FCS. The FY 2007 funding for the actions was $0.6 million.
Support to the DTC. DTC used SAIC to perform FCS-related activities under
BPA W91ZLK-06-D-0001. The goal of the BPA was to provide general test, evaluation,
analysis, and report generation support for various military systems undergoing test and
evaluation to ensure timely completion and technical quality.


                                             20
                                   FOR OFFICIAL USE ONLY
Delivery Order 14. Under Delivery Order 14 of the contract, SAIC was tasked to provide
technical support for “all FCS-related activities” at the DTC and its related test centers.
Specifically, under Delivery Order 14:
       2. The contractor shall perform the following tasks:

       a. Provide test and evaluation expertise across the following commodity areas: Tank-
       automotive, armament, Soldier, Command Control Communications (C3), Intelligence
       Electronic Warfare (IEW), Nuclear, Chemical, Biological, General Equipment, Air
       Delivery, Soldier Support, Aviation, Missile, Unmanned, Fire Support, Future Force, and
       related Integrated Systems.

       b. Provide non-personal, technical services support to DTC. Primary areas of technical
       services support include, but are not limited to: assistance in the timely planning, testing,
       evaluation, analysis, and report generation with assured technical quality involving various
       military systems and [items under test] assigned to DTC.

       c. Provide non-personal, technical services support to other DTC test centers, ATEC
       subordinate commands, and other DoD or U.S. government agencies with whom DTC or
       ATEC is either supporting or working. Areas of technical services support include, but are
       not limited to: timely planning, testing, evaluation, analysis, database development and
       maintenance, document and report generation and assistance in the development,
       verification, validation, and accreditation of test methodologies, analytical tools, and
       processes used in support of test and evaluation
                          .        .        .         .      .        .       .
       e. Provide the following technical requirements:

       (1) Plan Development. The contractor shall assist in preparing test plans [e.g., Test and
       Evaluation Master Plan (TEMP), event design plans (EDP), detailed test plans (DTP), and
       test technology plans (e.g., Instrumentation Development and Acquisition Plan (IDAP) to
       include type of tests, proposed schedule, and estimated cost.

       (2) Archive Data & Information. The contractor shall distill test data into validated
       engineering analyses and derivative program management information and archive all three
       in the VISION Digital Library (VDL) as required.

OCI Solicitation and Contract Provisions. The OCI provisions included in
BPA W91ZLK-06-D-0001 effectively placed no restriction on the technical support that
SAIC could perform for the DTC. Specifically, the BPA contained the following OCI
provisions.
       The offeror is hereby advised that the Contracting Officer has concluded that the proposed
       acquisition may involve potential organizational conflict(s) of interest under the rules
       prescribed in Federal Acquisition Regulation Subpart 9.5. The nature of the perceived
       potential conflict and the proposed restraint upon future contractor activities are set forth in
       the proposed Section H clause titled "Organizational Conflict(s) of Interest Clause." The
       proposed contract clause and the application of Federal Acquisition Regulation Subpart 9.5
       are subject to negotiation.

Although the clause advised that the scope of work to be performed under the contract had
potential for OCI, this section was never incorporated into the BPA to disclose the nature
of the perceived potential conflict or to outline the restrictions on SAIC’s future activities.


                                             21
                                   FOR OFFICIAL USE ONLY
In addition, the clause did not require that a contractor’s potential OCIs be reevaluated at
the time each delivery order was awarded.

OCI Disclosure and Government Evaluation. SAIC included the following passage in
the proposal it submitted addressing its lack of potential OCIs with respect to its ability to
perform the technical requirements outlined in the BPA solicitation:
       In order to fulfill OCI requirements set forth in Clause L14 of Section II of the RFP, SAIC
       routes the Government's new SOW through our Corporate OCI System. SAIC has received
       no OCI (conflicting) responses to date. Should an OCI response occur, SAIC will
       immediately investigate the conflict, begin mitigation discussions, and alert the
       Government. All measures will be taken to resolve the issue to the satisfaction of all parties.

We were unable to determine if the contracting officer performed any evaluation beyond
accepting statements made in SAIC’s proposal to determine if potential issues existed that
would hinder SAIC’s ability to provide unbiased advisory and assistance services related to
the overall contract or the specific scope of work SAIC performed under Delivery
Order 14. There was no documentation in the contracting file to show how the issue was
addressed.

Support to the Redstone Technical Test Center. The DTC’s Redstone Technical Test
Center used SAIC for FCS support under the AMCOM Express BPA W31P4Q-05-A-0031,
Task Order 18. The objective of the task order was:

       1.0 MISSION OBJECTIVE: The Redstone Test Center (RTTC) requires support for
       identification and documentation of capabilities and developments within RTTC which
       have reasonable potential for application to Advanced Test Technology (ATT) applications
       with specific attention to Future Combat System (FCS) systems/subsystems/components;
       focusing primarily on sensors and robotics (unmanned systems). This task also includes
       providing expertise in identifying the planned FCS simulation and test events, throughout
       the FCS System Design and Development (SDD) phase, which provide the best
       opportunities for RTTC support, focusing primarily on systems and below (subsystems and
       components) opportunities. Facilitate in the development of a process to identify and secure
       potential FCS Test and Evaluation (T&E) and ATT development opportunities for RTTC is
       intrinsically part of this task. Support for documenting an operational architecture and
       roadmap to guide development and/or integration of RTTC advanced capabilities for
       application to ATT development and FCS is also required. This architecture and roadmap
       will serve as a plan for structuring disparate activities across RTTC into a cohesive effort
       and must inherently address activities for verification, validation and accreditation
       (VV&A), distributed testing, standards, integration and other associated issues necessary to
       enable RTTC capabilities for timely application to ATT development and FCS T&E. This
       task requires extensive integration and collaboration within RTTC Virtual Proving Ground
       (VPG) activities to ensure relevancy to planned and ongoing VPG architecture, synthetic
       environments, tools, and integrated information systems as well as outside organization test
       technology thrust areas. While support from this requirement is intended for advanced test
       technology development and FCS T&E applications, it is expected that the processes
       identified and documentation developed will be applicable to RTTC support for similar
       Future Army T&E activities. The contractor, as an independent contractor and not as an
       agent or employee of the Government, shall be required to provide a broad level of
       technical expertise in support of this task for RTTC.




                                             22
                                   FOR OFFICIAL USE ONLY
OCI Solicitation and Contract Provisions and OCI Disclosure and Government
Evaluation. The same procedures were followed for Task Order 18 as were previously
described for the three orders issued against the AMCOM Express BPA W31P4Q-05-A-
0031.

DTC needs to determine whether it is appropriate to obtain advisory and assistance services
from SAIC or any other contractor that has significant involvement in the development of
DoD systems unless a waiver is obtained from the agency head and the waiver request and
decision are included in the contract file as required by FAR Subpart 9.5.

Operational Test and Evaluation Activities
Director of Operational Test and Evaluation
DOT&E has used SAIC as its primary commercial contractor for advisory and assistance
services since 1999 through a number of contract actions. DOT&E funded work related to
engineering and technical analysis (ETAS) support and to support the Joint Test and
Evaluation (JT&E) Program. During FY 2007, DOT&E added $17.5 million to three
contract actions to obtain those advisory and assistance services.
ETAS Support. DOT&E stated it uses the ETAS contract for non-10 U.S.C. 2399
responsibilities and federally funded research and development centers6 to carry out
10 U.S.C. 2399 responsibilities. However, some of the support provided by SAIC under
the ETAS contract raises concerns that the non-10 U.S.C. 2399 work may be indirectly
crossing over into the 10 U.S.C. 2399 arena. While no operational testing related to FCS
had been conducted at the time of our fieldwork, a number of tasks performed under the
delivery orders issued to SAIC against contract W91CRB-04-D-0009 causes concern.
Specifically, SAIC provides the following support to the DOT&E Principal Deputy under
Delivery Order 0207:
        Technical and Analytical Support – The contractor shall provide technical support for the
        analysis, review and evaluation of current and proposed test and evaluation policies,
        processes, training, infrastructure and resources including but not limited to the following
        areas as directed by the government:
                           .         .        .       .        .        .        .
            Managerial support for the formation, promulgation, and implementation of a Testing
             in a Joint Environment Roadmap that addresses those changes necessary to ensure that
             T&E is conducted in a joint environment to enhance the fielding of joint capabilities

            Research and analysis of test and training range resource requirements as related to
             joint test, training and experimentation for DoD components as well as other Federal
             agencies, and review of OSD-led management processes designed to facilitate the


6
  Federally funded research and development centers (FFRDC) are activities that are sponsored under a broad
charter by a Government agency (or agencies) for the purpose of performing, analyzing, integrating,
supporting, and/or managing basic or applied research and/or development, and that receive 70 percent or
more of their financial support from the Government; and—(1) A long-term relationship is contemplated; (2)
Most or all of the facilities are owned or funded by the Government; and (3) The FFRDC has access to
Government and supplier data, employees, and facilities beyond what is common in a normal contractual
relationship.
                                             23
                                   FOR OFFICIAL USE ONLY
           acquisition of joint and interoperable instrumentation systems and architectures that
           support the interoperability of ranges and range instrumentation
                          .       .          .       .        .       .     .
          Major Range and Test Facilities Base oversight and policy coordination with the
           Defense Test Resource Management Center, to include collecting information,
           monitoring activities, studies, and analysis

          Test and Evaluation training to include T&E workforce and professional staff training
           requirements, delivery methods, and interface/coordination with the OSD efforts to
           integrate test and training with support for the DTTSG and the Test and Training
           Roadmaps
                          .        .       .        .       .       .       .
          Senior technical support to the Office of the [Secretary of Defense, Life Fire Test and
           Evaluation (LFT&E)] providing analysis of past LFT&E programs, plans, procedures,
           and methodologies to identify lessons learned and best practices

SAIC provides technical analysis support relating to land warfare to the DOT&E, Action
Officers, and Deputy Directors under Delivery Order 0407:
       Integrated Resource Analysis Task - The contractor shall provide the Director, OT&E, and
       staff with support and analysis of test and evaluation (T&E) program resource adequacy
       and planning across all aspects of the DOD acquisition system and DOD’s test and
       evaluation infrastructure. This will include support of OSD Oversight Acquisition Programs
       (and other related ancillary acquisition programs) and all related test and evaluation test
       planning and resource development activities. Support will include attendance at various
       meetings/conferences and involve travel from DOT&E. Tasks will include:

          Analyzing requirements documents for Oversight Programs and capabilities to
           determine the impact on future test resources.
          Reviewing, analyzing, and supporting DOT&E staff oversight of Test Strategies and
           TEMPS for Oversight Programs and capabilities to determine possible impact on future
           test resources.
          Monitoring program progress and influence T&E [test and evaluation] strategy
           specifically focused on test resource adequacy with DOT&E staff by participating in
           program working groups and IPTs as required.
          Conducting Major Decision Point assessment of System Resource Adequacy to support
           program Major Decision Points and Operational Test readiness forums.
          Analyzing test resource adequacy issues and synergies across warfare areas based on
           individual assessments and other warfare area studies.
          Assisting in the management of the Target Management Initiative (TNII) Program for
           DOT&E.
          Monitoring and attaining core competency for targets and other T&E surrogates,
           maintaining a close working relationship with the Threat System Office, including its
           INTEL function.
          Participating in and supporting various DOT&E, Central Test and Evaluation
           Investment Program (CTEIP), and Service resource investment forums.
          Conducting specialty systems and warfare area assessments and studies oriented
           toward program and infrastructure resources shortfalls and issues.
          Other related test resource analysis tasks, as directed by the Action Officers and
           Deputy Directors.




                                           24
                                 FOR OFFICIAL USE ONLY
SAIC also provided technical analysis support to the Deputy Director, Naval Warfare and
Net Centric Systems, DOT&E for conducting operational evaluations of the information
operations, interoperability, and information assurance of DoD systems under Delivery
Order 0507. The support includes:
       This task will provide technical and analytic support to the Deputy Director, Naval Warfare
       & Net Centric Systems, DOT&E, for the conduct of operational evaluations of the
       information operations, interoperability and information assurance of DoD systems
       primarily, but not exclusively, and in conjunction with Service and Combatant Command
       exercises, as described below. This task will also support the development of
       methodologies, policy, and plans for OT&E of military information operation capabilities.

       Operational Evaluation of the Interoperability and Information Assurance of DoD
       Systems - Contractor will provide DOT&E a team of qualified technical personnel for
       research and analysis in the definition, design, planning, conduct, and analysis of
       Information Operations (IO), Information Assurance (IA), and Interoperability (Io) directly
       and indirectly affecting the capabilities of the Services, components, and agencies of the
       Department of Defense. Contractor will provide the following technical and analytical
       support of special studies and the operational evaluation of IO, IA, and Io of DoD systems
       and associated test and exercise capabilities:

              Conduct visits to Unified Commands and assist in the planning and execution of
               IO, IA and Io assessments during Combatant Command Exercises
              Assist DOT&E with IO, IA, Io related special studies and analyses.
              As directed by the Government, participate in and/or provide support to
               conferences, training, and meetings
              Support DOT&E in preparation for conferences with Services, Combatant
               Commanders, Operational Test Agencies, Information Warfare Commands, the
               National Security Agency, and others
              Ensure a system is established to capture relevant information in an electronic
               database that organizes and provides key information to the Government that is
               easily accessible.

OCI Solicitation and Contract Provisions. The U.S. Army Robert Morris Acquisition
Center issued a Request for Quotations to solicit industry proposals for fulfilling DOT&E’s
requirements. The Request for Quotations contained the following clause that was
incorporated into the contract to exclude offerors with significant involvement in the
development of DoD systems that DOT&E oversees from being considered for the award.
Section C, “Descriptions and Specifications,” Part 10.0, “Organizational Conflict of
Interest,” states:
       Offerors and providers are excluded from this contract who have significant
       involvement in development of DoD systems that are under, or will be under DOT&E
       oversight. An OCI Mitigation Plan will be developed by the contractor within 90 days of
       contract award, approved by the government, and implemented.

The contracting officer also issued Amendment 0003 to the solicitation to clarify the clause
after receiving a question from industry.
       [Question] Are offerors with an OCI in fact excluded, or are they permitted to compete
       provided they have an acceptable mitigation plan?




                                           25
                                 FOR OFFICIAL USE ONLY
       Answer: Offerors and providers who have significant involvement in development of
       DoD systems that are under, or will be under, DOT&E oversight are excluded from
       this contract. Significant involvement means plain-and-simple exclusion. Those
       offerors who do not have significant involvement, or have no involvement, still must
       develop an Organizational Conflict of Interest (OCI) Mitigation Plan. [emphasis
       added]

OCI Disclosure and Government Evaluation. Although the Army FCS Program was a
listed program on the DOT&E Official Test and Evaluation Oversight List, SAIC stated, in
the proposal it submitted to fulfill DOT&E’s requirements, that it had a long history of
supporting DOT&E with no OCI issues. SAIC also used FCS as an example to
demonstrate its procedures for preventing relationships or arrangements from creating
OCIs. Specifically, SAIC stated that:
       SAIC has a long history of working closely with DOT&E. Since the award as a prime
       supporter of the OMNIBUS contract in 1989, SAIC has continued successively to be a
       major partner on the ETAS I and ETAS II contracts.
                          .      .       .        .       .   .        .
       At the OSD [Office of the Secretary of Defense] level, SAIC analyzes and performs
       research in support of development and promulgation of key DOT&E policies and guidance
       memoranda, including DoD Directive 3200.11, Major Range and Test Facility Base, DoD
       Directive 5000.1, and DoD Directive 5000.59, Modeling and Simulation Management.
       SAIC research also supports major programs like the Central Test and Evaluation
       Investment Program (CTEIP), the Threat Systems Office (TSO), and the Test and
       Evaluation Science and Technology (T&E/S&T) program. SAIC also was a key
       contributor to the reorganization effort that transferred oversight responsibility for the
       CTEIP, TSO, counter-countermeasures office (CCM), and other functions to DOT&E.
                          .        .       .       .         .       .        .
       DOT&E cannot risk any disruption, workload burden, or cost impact associated with OCI
       due to industry consolidations, merger and acquisition, or other corporate business ventures.
       SAIC believes there are no current OCI issues. SAIC has implemented two key
       measures to protect DOT&E against any potential OCI risk: an organizational structure that
       prevents OCI issues from occurring, and a valid, proven OCI plan. We have isolated the
       test and evaluation business unit supporting the ETAS contract organizationally from any
       other business within the company providing services, such as lead systems integrator. The
       thoroughness of this isolation and provisions of our OCI plan are further detailed in
       attachment II using Future Combat System as an example. Additionally, we already have
       in place a contracting officer approved OCI plan implemented under the current ETAS
       contract. OCI mitigation is critical to the preservation of DOT&E’s unbiased T&E
       oversight responsibilities, and, therefore, integral to performance risk of this contract. …
       We have supported DOT&E on the last two contracts without any real or perceived
       OCI issues. [emphasis added]

The OCI Avoidance and Mitigation Plan identified in the passage downplays the true
extent of SAIC’s involvement in the development of the FCS and makes the argument that
any OCIs created by their LSI subcontract work for The Boeing Company were eliminated
through the company’s business isolation techniques. Specifically, in an attachment
outlining its OCI Avoidance and Mitigation Plan, SAIC states:
       SAIC understands the Organizational Conflict of Interest (OCI) concerns and the
       restrictions set forth in 10 U.S.C. section 2399(e)(3)(A). SAIC has reviewed the ETAS
       III Statement of Work and each of the approved Task Orders for potential OCI.

                                            26
                                  FOR OFFICIAL USE ONLY
Significantly, the scope of the ETAS III contract does not include support for the
assessment or evaluation of specific acquisition programs on the DOT&E oversight
list. DOT&E carefully guards this function and has reserved the assessments and
evaluation of the systems on the oversight list specifically to the Institute for Defense
Analyses, a government Federally Funded Research and Development Center (FFRDC).

While SAIC is a large company involved in a broad range of programs, the SAIC
Team does not anticipate work in support of the ETAS contract and associated Task
Orders will create the possibility of a perceived, potential or real OCI. However, if the
SAIC/ Government Task Planning Advisory Group … identifies the possibility for a real or
perceived OCI, measures will be taken to safeguard against an OCI occurring. The SAIC
Team is confident that an OCI will not be an issue with this contract.
                  .        .        .         .        .        .      .
SAIC is the primary commercial subcontractor to Boeing for the Future Combat
System (FCS) Lead System Integrator (LSI) contract. This is a systems integration
contract, not a development (supply-the-system or maintain-the-system) contract.
[emphasis added]

This contract is a nontraditional acquisition program in which the role of LSI is somewhat
analogous to that of a program office. The LSI team, with Boeing as the lead contractor
and SAIC the primary commercial subcontractor will:

        Work in partnership with the Army and Defense Advanced Research
         Projects Agency (DARPA)
        Have systems integration responsibility for the FCS program.

Because Boeing and SAIC will conduct competitive procurements with the Army and
DARPA, a stringent government-approved OCI Mitigation Plan and organizational
isolation ground rules are in effect.

        An SAIC FCS program directive that covers all SAIC employees and
         consultants is in place.
        SAIC employees supporting the FCS Program Office operate behind a
         firewall that protects competitive, sensitive information (physically and
         organizationally).
        Individuals are tracked by name and employee number and are restricted
         from supporting other divisions within the company that pose potential
         conflicts.
        Individuals working behind the firewall must sign three firewall
         acknowledgement forms, which cover competition-sensitive information,
         competitive proposal information, and competitive subcontracts proposal
         compliance.
        Any personnel supporting FCS in the LSI role must be in the FCS
         dedicated division, i.e., inside the firewall.
                    .        .         .         .      .       .       .
It is important to note that the scope of the ETAS Team’s support does not include any Title
10 U.S.C. evaluations as defined by paragraph 3.0 of the [Statement of Work]. The Current
request for quotations (RFQ) explicitly forbids ETAS support from performing any Title 10
weapon system evaluations and calls this area out exclusively to the FFRDCs (i.e., IDA).
Our Integrated Resource Assessment Team (IRAT), does assist the conventional systems
deputate in non-Title 10 assessments of the adequacy of test resources (range infrastructure,
targets, and threat systems) in support of numerous OT&E programs, including FCS, but
does not conduct assessments per Title 10 restrictions. However, to avoid any perception of
OCI regarding the FCS program, the SAIC ETAS team has recused itself from any

                                     27
                           FOR OFFICIAL USE ONLY
       involvement in IRAT support regarding FCS, in accordance with our government-approved
       OCI plan.

              All ETAS IRAT work on FCS is done by an unencumbered
               subcontractor, ARI.
              ARI reports directly to the government technical representatives and takes
               direction only from those representatives, not from SAIC.
              Deliverables are provided directly to the government by ARI.
              SAIC receives only the cover letter, not the technical product.
              Monthly progress and required financial reports are provided by ARI to
               SAIC. No written or verbal data is shared that could be construed as a
               potential OCI.

The language included in The Request for Quotations indicates that the Government did
not want system developers fulfilling the contract’s requirements. However, the proposal
that SAIC submitted understates the company’s involvement in FCS development.
SAIC stated in its proposal that by rigorously adhering to the measures it “intended to
preserve the ability of other SAIC organizations other than the ETAS Division to seek and
perform the work they might otherwise be precluded from pursuing as a result of the
restrictions set for in the contract’s OCI clause.”

We found no evidence that anyone evaluated whether SAIC was significantly involved in
the development of a DoD system that DOT&E was or would be overseeing prior to
contract award. According to the contracting officer, DOT&E did not see a conflict with
awarding the contract to SAIC because it had previously been fulfilling the requirements
under a bridge contract that was entered into after the previous prime contractor was
dropped after being acquired by Northrop Grumman, another FCS systems developer.
Only after an inquiry was made was the issue of how the Government reached its
conclusion that SAIC’s participation in the development of the FCS did not violate the OCI
clause contained in the solicitation examined. Although both of the companies that
submitted proposals were involved in developing FCS, the U.S. Army Robert Morris
Acquisition Center contracting officer did not place either company on the excluded list.
Furthermore, on April 26, 2004, the Army awarded SAIC a 5-year time-and-materials
indefinite-delivery, indefinite-quantity contract with a not-to-exceed value of $60 million
for engineering and technical analysis services after it was determined that SAIC’s
proposal represented the best value.

JT&E Support. SAIC also provided advisory services for joint test and evaluation
programs conducted by DOT&E under BPAs F08635-02-A-0010 and W91C9G-07-D-
0002. Joint test and evaluation programs are process-focused rather than product-focused
test and evaluation activities conducted in a joint military environment and they review
such things as the joint techniques, tactics, and procedures associated with already fielded
systems. The purpose of these studies, tests, and evaluations is to:

      bring two or more Services together to provide improvements in joint
       interoperability of Service systems;
      improve technical and operational concepts;
      improve performance of systems;

                                           28
                                 FOR OFFICIAL USE ONLY
      validate testing methodologies; and
      gather data for validating models, simulations, and test beds.

The support that SAIC provides for each study, test, or evaluation conducted under the
blanket purchasing agreements includes:
       establishing, organizing, and supporting the Joint Test Force (JTF) Directorates; designing,
       planning, and executing tests; analyzing test results and documenting findings and
       conclusions in formal, written reports; transitioning test products and ownership to
       designated customers, and closing-down the joint test organization.

OCI Solicitation and Contract Clauses. The solicitations for the BPAs contained the
following clauses to address prospective offerors’ potential OCIs:
                                        BPA - F08635-02-A-0010

       The following restrictions and definitions apply to prevent conflicting roles which may bias
       the Contractor's judgment or objectivity, or to preclude the Contractor from obtaining an
       unfair competitive advantage in concurrent or future acquisitions.
                          .        .        .          .        .         .      .
       Restrictions: The Contractor shall perform systems engineering and/or technical direction,
       but will not have overall contractual responsibility for the system's development,
       integration, assembly and checkout, or production. The parties recognize that the Contractor
       shall occupy a highly influential and responsible position in determining the system's basic
       concepts and supervising their execution by other Contractors. The Contractor's judgment
       and recommendations must be objective, impartial, and independent. To avoid the prospect
       of the Contractor's judgment or recommendations being influenced by its own products or
       capabilities, it is agreed that the Contractor is precluded for the life of the system from
       award of a DoD contract to supply the system or any of its major components, and from
       acting as a subcontractor or consultant to a DoD supplier for the system or any of its major
       components.
                            .       .       .        .         .       .        .
       The Contractor agrees to accept and to complete issued delivery orders, provided that no
       new organizational conflicts of interest are created by the acceptance of that order. The
       Contracting Officer shall identify the organizational conflict of interest in each order. The
       Contractor shall not contract with Government prime Contractors or first-tier subcontractors
       in such a way as to create an organizational conflict of interest.

                                       BPA - W91C9G-07-D-0002

       Since DOT&E has the authority for performance and assessment of military hardware, any
       offeror (and all subcontractors, teaming partners, consultants, etc.) that is a producer of
       hardware with a Defense contractor poses a potential conflict of interest.

       An organizational conflict of interest (OCI) issue is a significant consideration that can
       prevent the government from awarding a contract to an offeror. It is possible through the
       submission of an acceptable mitigation plan, however, for an offeror to sufficiently reduce
       the risks associated with an OCI such that contract award can occur.

       All offerors shall comply with the provisions of Federal Acquisition Regulation (FAR)
       Subpart 9.5, Organizational and Consultant Conflicts of Interest. Any offerors that have a
       potential conflict of interest are required to submit an Organizational Conflicts of Interest
       (OCI) Mitigation Plan to avoid or mitigate all significant potential OCIs.

                                            29
                                  FOR OFFICIAL USE ONLY
       The Government intends to avoid, neutralize, or mitigate significant conflicts of interest
       before contract award.
                         .     .        .        .        .        .         .
       The government will treat all OCI submissions as proprietary and protect the proposed
       information accordingly. If no potential conflicts exist, the offeror shall expressly state that
       “No OCI issues exist; therefore, no mitigation plan is provided”.

In addition, each order issued against the BPAs contained the following OCI clauses:
                                         BPA - F08635-02-A-0010

       In accepting and performing work required by this task order the contractor certifies that
       such work does not constitute or will not create a conflict of interest due to any other work
       performed by the corporation.

                                        BPA - W91C9G-07-D-0002

       In providing a proposal for performance of the effort required by this task order, the
       contractor certifies that either:

               No OCI issues exist;
               OCI issues have been addressed in contract OCI Mitigation Plan.

OCI Disclosure and Government Evaluation. We believe both blanket purchasing
agreement’s OCI clauses are insufficient. According to the DOT&E, JT&E Program
Manager, SAIC would not have an OCI unless FCS or another system or program that it
helped develop is proposed for a joint test. However, neither of the above clauses required
SAIC to include objective information in either its blanket purchasing agreement or in its
task order proposals related to other work that SAIC was or had performed for the
contracting officer to analyze for potential OCIs. Instead, the clauses exclusively rely on
SAIC to use its judgment to decide what does or does not constitute an OCI with no
government validation unless a potential OCI is disclosed. SAIC made the following
disclosures in the order proposals it submitted for contract actions associated with BPA
F08635-02-A-0010.

       In order to fulfill OCI requirements of the BPA, SAIC routes Government's Statements of
       Work through our Corporate OCI System.7 Currently for this opportunity, SAIC does not




                                             30
                                   FOR OFFICIAL USE ONLY
       have any OCI issues. However, we will provide a Mitigation Plan in the near term to
       mitigate any potential OCI concerns.
                         .        .        .   .       .        .       .
       In order to fulfill OCI requirements of the BPA, SAIC routes the Government's new
       Statements of Work through our Corporate OCI System. If we should receive an OCI
       response, we will immediately investigate the conflict, begin mitigation discussions, and
       alert the Government. All measures will be taken to resolve the issue to the satisfaction of
       all.

SAIC made the following statements regarding potential OCIs in the proposals it submitted
for contract actions associated with BPA W91C9G-07-D-0002:
                                                   BPA

       Science Applications International Corporation (SAIC), a high-technology services
       company, has not experienced any organizational conflict of interest (OCI) issues during
       performance of Joint Test and Evaluation (JT&E) projects as the prime contractor in
       support of JT&E Contract No. F08635-02-A-0010.
                        .        .       .       .       .         .         .
       SAIC has reviewed the JT&E Engineering Services Statement of Work (SOW) for potential
       OCI issues. While SAIC is a large company involved in a broad range of programs, we are
       principally a service provider and not a major hardware provider—hardware production is
       an insignificant fraction of SAIC’s business.

                                              Task Order 2

       Organizational Conflict of Interest and Performance Measurement. SAIC certifies that no
       organizational conflict of interest issues exist for this task order. SAIC’s quality approach
       for contract support to the JFSD [Joint Feasibility Study Director] requires that the JEPAC
       [Joint Electronic Protection for Air Combat] task manager and his immediate supervisors
       are responsible for implementing and supervising quality assurance activities and reviews,
       both technical and administrative.

                                              Task Order 3

       Organizational Conflict of Interest (OCI): In order to fulfill OCI requirements set forth in
       the provisions of Federal Acquisition Regulation (FAR) Subpart 9.5 and Contract No.
       W91C9G-07-D-0002, SAIC has applied all procedures associated with the SAIC OCI
       Mitigation Plan (Attachment 5) of Contract No. W91C9G-07-D-0002 including routing the
       Government’s QRT [Quick Reaction Test] Statement of Work through our Corporate OCI
       system. SAIC has received no OCI (conflicting) responses to date. Should an OCI response
       occur, SAIC will immediately investigate the conflict, begin mitigation discussions, and
       notify the Government. All measures will be taken to resolve the issue to the satisfaction of
       all.

We obtained the routings and responses produced by the SAIC OCI management system
for two of the FCS-related advisory services contracts.8 In both cases, all SAIC business
units reported they had “no conflict” with the scope of work covered by the contracts.



8
 The DOT&E Engineering and Technical Advisory Services contract W91CRB-06-D-0009 and the Army
Evaluation Command Contract W91CRB-06-D-0014 previously detailed in this report.
                                            31
                                  FOR OFFICIAL USE ONLY
However, based on the         bids that SAIC participates in each year, we believe that the
individuals that SAIC dedicates to review OCI issues have limited time to make each OCI
determination. Furthermore, regardless of the depth of the contractor’s review, the
Government needs to conduct an independent review of its own to adequately protect the
Government’s interest.

DOT&E needs to determine whether it is appropriate to obtain advisory and assistance
services from SAIC or any other contractor that has significant involvement in the
development of DoD systems that the Director is or will be overseeing. If the Director
determines it is essential to use the same contractor, appropriate waiver procedures should
be followed as required by Title 10 U.S.C 2399 and FAR Subpart 9.5.

Army Test and Evaluation Command
ATEC also funded work with SAIC for advisory and assistance services that related to FCS
on four contract actions. The collective value of the contract actions for FY 2007 was $0.8
million. Specifically, through BPA W91ZLK-06-D-0001 Delivery Orders 11, 16, and 17
and their follow-on contract, General Services Administration Schedule Contract 23F-
0107J Order W9115U-08-F-0002, SAIC provided the following areas of general test,
evaluation, analysis, and report generation support for military systems undergoing test and
evaluation (including FCS):

      test and evaluation methodology support;
      threat representation in test and evaluation support;
      test technology program support;
      modeling, simulation, and instrumentation support;
      test and evaluation policy support;
      test and evaluation training support;
      cross command collaboration environment support;
      test technology program management support;
      technical review;
      plan development;
      software development;
      test results validation, analysis, and distillation support; and
      report and briefing support.

OCI Solicitation and Contract Provisions. The OCI provisions included in
BPA W91ZLK-06-D-0001 effectively placed no restrictions on the test, evaluation,
analysis, and report generation activities that SAIC could perform for the U.S. Army test
and evaluation community. Specifically, the BPA contained the following OCI provisions:

       The offeror is hereby advised that the Contracting Officer has concluded that the proposed
       acquisition may involve potential organizational conflict(s) of interest under the rules
       prescribed in Federal Acquisition Regulation Subpart 9.5. The nature of the perceived
       potential conflict and the proposed restraint upon future contractor activities are set forth in
       the proposed Section H clause titled "Organizational Conflict(s) of Interest Clause." The
       proposed contract clause and the application of Federal Acquisition Regulation Subpart 9.5
       are subject to negotiation.

                                             32
                                   FOR OFFICIAL USE ONLY
Although the OCI clause advised SAIC that the scope of work to be performed under the
BPA had potential for OCI, the section was never incorporated into the BPA to disclose the
specific nature of the perceived potential conflict or to outline the restrictions on SAIC’s
future activities. In addition, the BPA’s OCI language did not require OCI determinations
be made again with each scope of work added with each delivery order. Consequently,
some scopes of work that SAIC could perform under Delivery Orders 11, 16, and 17 had
the potential to create conflicts for SAIC in light of its FCS development efforts and would
escape detection. During discussions we held with SAIC on a discussion draft of this audit
report, company representatives stated that the Government used their contract vehicle for
the purpose of expediting the contracting process to get the work to the Trideum
Corporation. However, we were not provided nor did we find any documentation during
the audit to support the company’s claim that the Government directed that SAIC use the
Trideum Corporation to perform the scopes of work covered by the delivery orders or that
the Government had waived limitations of FAR 9.505-1.

In addition, despite the OCI provisions included in the follow-on contract (General
Services Administration Schedule Contract 23F-0107J Order W9115U-08-F-0002) placing
additional restrictions on a prospective contractor’s eligibility to fulfill the stated
requirements; SAIC was again awarded the contract to perform the tasks. The follow-on
task order included the following OCI restrictions.
       Title 10, US Code Section 2399 prohibits the involvement of a defense contractor in the
       operational test and evaluation of its own systems and equipment. Consequently, all parties
       must be particularly sensitive to potential, actual, or perceived organizational conflicts of
       interest where system contractors are or appear to be involved in the operational testing and
       evaluation of their own equipment or systems, including involvement as a test support
       contractor. Such involvement is strictly prohibited. The Contractor acknowledges that it is
       familiar with Title 10 U.S.C. Section 2399 and FAR 9.5 and agrees that it will avoid
       conflicts of interest and, to the maximum possible extent, the appearance of conflict of
       interest, in accordance with the principles set forth in the Statute and FAR. The contractor
       also acknowledges that statutory operational testing and evaluation conflicts of interest
       arising under 10 U.S.C. 2399 and Army Regulation 73-1, paragraph 5-6, may not be
       mitigated or "firewalled" using the FAR 9.5 procedures.

That language clearly states that involvement of a Defense contractor in the operational test
and evaluation of its own systems and equipment is “strictly prohibited” and could not be
“mitigated” or “firewalled” using FAR 9.5 procedures. The clause also contained the
following passage that required SAIC to self-identify involvement in FCS development.
       If performance of any requirement requires the contractor to supply technical support
       related to systems or projects with which the contractor is already directly concerned, either
       by prime or subcontract, with either another firm or the Government, including, and
       particularly, the cognizant DOD Program or Project Manager, the contractor shall so
       immediately inform the Contracting Officer. The requirement may be withdrawn in writing
       at the discretion of the Contracting Officer without recourse by the contractor. Such
       withdrawal shall be final and not subject to the "Disputes" (FAR 52.233-1) clause of this
       contract.

OCI Disclosure and Government Evaluation. SAIC did not address OCI in their
proposal and the ATEC Mission Support Contracting Activity stated that they did not

                                            33
                                  FOR OFFICIAL USE ONLY
understand the FCS involvement of the performance-based work statement. As a result,
SAIC was allowed to support the ATEC mission, including providing program
management support to the Cross Command Collaboration Environment Project Director
and helping develop the threat representation used to test the FCS. After becoming aware
of the role SAIC played in the development of FCS, the contracting officer initiated a
review of the FCS support being provided under the contract and concluded that a statutory
OCI existed with regard to the threat representation and the cross command collaboration
support that SAIC was providing. As a result, the contracting officer issued a letter to
SAIC on February 7, 2008, to notify SAIC that the contracting activity was electing to
partially terminate the task order. The letter stated:
       SAIC cannot as a contractor for the design and the development of the FCS, also assist in
       the development of the threat representation used to test the FCS. According to the scope,
       SAIC is instrumental in all aspects of test, evaluation, and analysis to include the timely
       planning, testing, test technology development and coordination; evaluation; analysis;
       database development and maintenance; document and report generation; and with the
       development, verification, validation, and accreditation of test methodologies, analytical
       tools, and processes used in support of test and evaluation.
                          .        .        .         .        .       .       .
       Based on the above findings and in pursuant to FAR Clause 52.212-4 (1), “Termination for
       the Government’s Convenience,” the Government has elected to employ its right to partial
       terminate the task order for its sole convenience.

In a February 28, 2008 letter, SAIC disagreed that the support it provided under the task
order presented a perceived or actual OCI with FCS. Specifically:
       SAIC strongly believes that the work we are performing under this support Task Order does
       not present a perceived or actual conflict of interest with the Future Combat System
       (FCS). We respectfully provide the following information to ATEC for review and
       consideration.

       Under the referenced Task Order, SAIC supports the Army Test and Evaluation Command
       (ATEC), Test Technology Directorate (TTD), whose primary mission is to synchronize
       ATEC’s policies, methodologies, threat representation, and technologies into a unified,
       consistent, and repeatable approach that enables evaluators and testers to produce credible
       and up-to-date results. Within the scope of this support Task Order, SAIC does not test or
       evaluate any system. We support TTD activities that support test and evaluation.

       In response to your determination of an organizational conflict of interest regarding SOW
       3.2.4, Threat T&E Coordination (as stated in your termination for convenience letter, dated
       February 7, 2008), SAIC is not contracted by ATEC TTD to develop threat representation
       for FCS and or deliver the FCS Threat Test Support Package (TSP). In fact, according to
       Department of the Army Regulation 381-11, it is not ATEC's responsibility to develop
       threat representation. The FCS Threat TSP is developed by TRADOC and validated by the
       DA DCS, G-2. SAIC is contracted to support the Threat Accreditation Working Group
       process, which includes attending meetings that the ATEC Senior Threat Coordinator can
       not attend and reviewing threat simulator and representation specifications to ensure that
       the specifications meet the requirements in the Threat TSP. Therefore, SAIC strongly
       believes that the work we are supporting in the SOW Task 3.2.4 does not present a
       perceived or actual conflict of interest with FCS because SAlC does not perform the Title
       10 U.S. Code Section 2399 activities of conducting operational test and evaluation;
       providing an advisory and assistance service with regard to the test and evaluation of FCS;


                                           34
                                 FOR OFFICIAL USE ONLY
       and establishing the criteria for data collection, performance assessment or evaluation
       activities for the operational test and evaluation of FCS.
                            .        .         .        .       .   .       .
       SAIC understands that SOW 3.7, paragraph c, will be revised because SAIC is not and will
       not act in the capacity of the deputy project director to 3CE. SAIC strongly believes the
       support we provide to 3CE does not present an actual or perceived OCI issue with FCS
       because SAIC provides systems engineering and administrative support in the
       identification, development, and maintenance of a core set of M&S tools, data, and business
       processes to ATEC, RDECOM and TRADOC, which can be leveraged by the Army
       Program Managers. These support activities include developing the 3CE core capability by
       leading the 3CE Interoperability Team, developing and initially populating the 3CE
       Knowledge Repository, and conducting V&V on the 3CE Core Federation and supporting
       tools. These activities do not require SAIC to perform test, evaluation or analysis of the
       FCS operational test and evaluation. Therefore, SAIC does not have any impact in the
       operational test and evaluation of FCS and as a result adheres to the provisions set forth in
       Title 10 U.S. Code Section 2399.

       SAIC is sensitive to actual or perceived organizational conflicts of interest. It is for this
       very reason that we make every attempt to identify and mitigate any potential OCI. SAIC
       is fully committed to avoiding all OCI issues by proactively implementing OCI safeguards.
       Our internal, Web-based OCI management system is in-place to provide corporate-wide
       visibility, queries, and responses for this purpose.

       We have taken every precaution to avoid any OCI and in doing so we have found no threat
       of an organizational conflict of interest in the performance of the work under this support
       Task Order. SAIC respectfully requests reconsideration based upon the specific facts
       highlighted herein…

On March 28, 2008, the contracting officer issued the ATEC Mission Support Contracting
Activity’s final determination and finding that the work that SAIC performed under task
order W9115U-08-F-0002 constituted an OCI as defined by 10 U.S.C. 2399. The
determination and finding stated:
       Overall, in reviewing the SAIC response, the contractor acknowledged that they provide
       support by assisting ATEC TTD in test and evaluation' activities as described in the first
       paragraph and alleged that they do not test or evaluate any systems. Based on the
       Contracted Advisory Assistance Services, Category 1, Management and Professional
       Support Services definition cited in AR 5-14 and DoDD 4205-2, advisory and assistance
       services are defined as services that provide engineering or technical support, assistance,
       advice; or training for the efficient and effective management and operation of DoD
       organizations, activities, or systems. They are normally closely related to the basic
       responsibilities and mission of the using organization. This category includes efforts that
       support or contribute to improved organization or program management, logistics, project
       monitoring and reporting; data collection, budgeting, accounting, auditing, and
       administrative and/or technical support for conferences and training programs. Although
       SAIC does not actively participate in the conduct of operational test and evaluation,
       services contracted are considered, based on the above definition, advisory and assistance
       and therefore, any FCS test and evaluation support performed under the above referenced
       ATEC task order can be conceived as an OCl violation.

       I hereby determine that SAIC, as Systems Integrator for FCS, has a pecuniary interest in the
       system under test (FCS Spin-out 1, June 2008). The overall examination of the PBWS made
       it impossible to ascertain supported services specifically to operational test and evaluation
       of FCS. However, since the services are for all aspects of test, evaluation, and analysis, a


                                            35
                                  FOR OFFICIAL USE ONLY
       logical conclusion can be made that operational test and evaluation for FCS activities are
       included. Hence, based upon title 10 U.S.C. 2399 (d) & (e) (3), and AMSCA clause 0209-
       4010, I have determined that an organizational conflict of interest does exist.

We commend the contracting officer of the ATEC Mission Support Contracting Activity
for taking prompt action to discontinue using SAIC to perform tasks related to FCS.

Army Evaluation Center
AEC funded work with SAIC for advisory and assistance services related to FCS under two
contract actions. The collective FY 2007 value of the actions was $5.1 million.
Specifically, through Task Orders 1 and 27 on multiple-award indefinite-delivery,
indefinite-quantity contract W91CRB-06-D-0014 with SAIC, AEC assigned SAIC the
following scopes of work:
                                                 Task Order 1
       Task 1. General Modeling and Simulation Support

              SMART and 3CE Architecture and Verification, Validation and Accreditation
               Subgroup Participation
              Development of Verification and Validation Plans
              Progress Tracking of Modeling and Simulation
              Capability Development and Analysis of Modeling and Simulation Data
              Independent Verification and Validation of Modeling and Simulation

       Task 2. Test and Evaluation Related Modeling and Simulation Architecture Requirements,
       Definition, and Verification, Validation and Accreditation for SMART Application

              System, and System of System Architecture Development
              Verification, Validation and Accreditation Planning
              Verification, Validation and Accreditation Documentation

                                            Task Order 27

       Task 1. General Modeling and Simulation Support

              SMART & 3CE Architecture Requirements Development
              Development of Verification and Validation Plans and Reports
              Progress Tracking of Modeling and Simulation
              Capability Development and Analysis of Modeling and Simulation Data
              Independent Verification and Validation of Modeling and Simulation

       Task 2. Test and Evaluation Related Modeling and Simulation Architecture Requirements,
       Definition, and Verification, Validation and Accreditation for SMART Application

              System, and System of System Architecture Development
              Verification, Validation and Accreditation Planning
              Verification, Validation and Accreditation Documentation
                                                 ….
       Task 3 AEC Model and Simulation Maintenance and Enhancement

              Database Administration
              Model Search Capability


                                           36
                                 FOR OFFICIAL USE ONLY
              System Engineering Plan Search Capability
              Documentation Search Capability
              Army Evaluation Center Model and Simulation Database Reports
              Army Evaluation Center Model and Simulation Database Access

       Task 4. End-to-End Modeling and Analysis

              System Performance Analysis
              Conceptual Model
              Tool Modification
              Predictive Runs to Inform CASTFOREM Modeling
              Test Tool Validation

OCI Solicitation and Contract Provisions. The solicitation that the Research,
Development, and Engineering Command issued to solicit proposals from private industry
to satisfy the Army Evaluation Center’s requirements included the following clause to
prohibit system developers from fulfilling the requirements.

         13.1 Title 10, US Code, Section 2399, and DOD/Army policy prohibit persons employed
         by the contractor for the system being developed from participating in the operational test
         and evaluation of that system. The only exception is where it is planned for system
         contractor employees to be involved in the operation, maintenance, or other support of the
         system when deployed in combat. Consequently, all parties must be sensitive to actual or
         potential conflicts of interest where contractors could be or are involved in the operational
         testing of their own equipment or weapons systems. Such involvement is strictly
         prohibited, and unlike other types of organizational conflicts of interest, cannot be
         overcome or cured by mitigation plans.

The clause clearly states that DoD and Army policy prohibit persons employed by the
contractor involved in developing a system from also participating in the operational test
and evaluation of that system. The clause also notes that “such involvement is strictly
prohibited and, unlike other types of [OCIs], cannot be overcome or cured by mitigation
plans.” The solicitation also included the following passages requiring SAIC to
immediately inform the Government if a scope of work requires it to supply technical
support related to systems or projects with which it was already involved.
         13.3.1.2 If performance of any SOW requires the contractor (to include subcontractors) to
         supply technical support related to systems or projects with which the contractor is already
         directly concerned, either by prime or subcontract, the contractor shall so immediately
         inform the Contracting Officer. The SOW may be withdrawn if a conflict is found. The
         Contractor shall not undertake performance of any SOW which requires it to supply
         technical support regarding such systems until the notice is given, and written consent to
         proceed is issued by the Contracting Officer.

OCI Disclosure and Government Evaluation. SAIC included the following passages
addressing OCIs in an attachment to the proposal it submitted for its multiple-award
indefinite-delivery, indefinite-quantity contract.

       AEC must execute its mission to plan and conduct independent evaluations that provide
       essential information to decision makers for equipping and sustaining the warfighter. As the
       test and evaluation (T&E) contractor, the SAIC Team must support AEC in a manner that
       maintains AEC's independence, because each evaluation product has the potential to drive

                                            37
                                  FOR OFFICIAL USE ONLY
       program and budget decisions. SAIC has successfully prevented any perception of or actual
       organizational conflict of interest (OCI) under our current contract and will continue to
       protect AEC against OCI-related situations under the new contract.
                         .         .        .       .        .       .        .
       SAIC is familiar with Title 10, U.S. Code, Section 2399, and relevant provisions of
       DoD/Army policy that prohibit personnel employed by the contractor developing the
       system from participating in the system's operational T&E. SAIC also is very sensitive to
       AEC's position as the "independent test and evaluator" and agrees to avoid even the
       appearance of any conflict of interest. SAIC supports the underlying OCI principles of
       preventing interference that might bias a contractor's judgment or objectivity that could lead
       to an unfair competitive advantage.
                          .        .        .        .          .      .         .
       SAIC will abide by the contracting officer's (CO) decisions on issuing SOWs to contractors.
       SAIC will analyze elements of all delivery order tasks, initiate our corporate-wide OCI
       notification and alert system, and use our corporate contracts database to identify potential
       OCls. Should a potential problem arise, SAIC will report it to the CO before starting the
       task and submit a proposed mitigation plan to the CO, whenever appropriate.
                          .        .        .        .        .        .        .
       If a delivery order requires SAIC to supply technical support for systems or projects with
       which we are already working-either by prime or subcontract, or with another private firm
       or the government, including and particularly the relevant DoD program or project
       manager-we will immediately inform the CO, who may withdraw the delivery order if he or
       she deems necessary.
                          .        .       .        .       .        .        .
       SAIC will notify the CO of any potential OCls during the preparation of our proposal. If we
       fail to notify the CO, we acknowledge his or her right to withdraw that task's SOW.
                           .       .       .         .         .       .         .
       SAIC has a comprehensive, internal OCI review / clearance process. Before bidding or
       accepting any task. a company-wide review of the proposed task is completed to prevent
       any OCI. If it is determined that SAIC has a potential OCI. we will prepare a description of
       the problem and a method to mitigate it. This analysis will be immediately presented to
       AEC for approval.

In addition, the response that SAIC submitted in response to the Request for Proposal
issued to solicit proposals to fulfill the specific requirements of Delivery Orders 1 and 27
included the following statement:
       In order to fulfill the OCI requirements set forth in Clause 13 “Conflicts of Interest” of the
       contract, SAIC routes the Government’s new Statements of Work through our Corporate
       OCI Systems. SAIC has received no OCI (conflicting) responses to date. Should an OCI
       response occur, SAIC will immediately investigate the conflict, begin mitigation
       discussions, and alert the Government. All measures will be taken to resolve the issue to
       the satisfaction of all.

We were unable to determine if the contracting officer performed any evaluation beyond
accepting statements made in SAIC’s proposal to determine whether potential issues
existed that would hinder SAIC’s ability to provide unbiased advisory and assistance
services related to the overall contract or the specific scope of work SAIC performed under
Delivery Orders 1 and 27. There was no documentation in the contracting file to indicate
how the issue was addressed. According to the contracting officer, while most contractors

                                            38
                                  FOR OFFICIAL USE ONLY
claimed to be sensitive to actual and perceived OCIs, in practice, they rarely disclosed any
conflicts. Therefore, the command also relied on its technical specialist’s knowledge of a
company’s other relationships to help make its OCI determinations. However, as Table 3
shows, the command’s technical specialists only excluded SAIC from 6 of the 16
FCS-related task orders that the command issued against its multiple-award contract.
Table 3 also shows that SAIC was awarded contracts for both of the delivery orders for
which it submitted proposals.

                              Table 3. FCS-related task orders

                              FCS-related orders                 16
                              Prohibited from Competing           6
                              Total                              10
                              Submitted Proposal                  2
                              Received Award                      2


According to the contracting officer, their technical specialists have little training related to
OCIs and no source of reliable information available to help them identify whether a
contractor was or had supported a system’s development activities. As a result, SAIC was
awarded task orders to provide advisory and assistance services related to a system that
SAIC may have a diminished capacity to give impartial, technically sound, and objective
assistance and advice.

AEC needs to determine whether it is appropriate to obtain advisory and assistance services
from SAIC or any other contractor that has significant involvement in the development of
DoD systems that the command is or will be overseeing. If the Commander determines it
is essential to use the same contractor, appropriate waiver procedures should be followed as
required by FAR Subpart 9.5 for non-Title 10 U.S.C. 2399 support.

Northrop Grumman
During 2007, Northrop Grumman was under contract to help develop FCS as well as
provide advisory and assistance services to the DTC and AEC.

FCS Development
Northrop Grumman supported Boeing in the development of the FCS Class IV Unmanned
Aerial Vehicle. The vehicle provides brigade-level reconnaissance, surveillance, and target
acquiring and target designation. Northrop Grumman also supported Boeing in the
development of the Logistics Decision Support and the Network Management systems for
FCS. Northrop Grumman received an estimated $1.7 billion for its developmental work.




                                          39
                                FOR OFFICIAL USE ONLY
Providing Systems Engineering and Technical Direction
Developmental Test Command
DTC funded work with Northrop Grumman for advisory and assistance services related to
FCS under two contract actions awarded to the New Mexico Technology Group (NewTec).
NewTec was a joint venture between Northrop Grumman, Computer Sciences Corporation
(CSC), Lockheed Martin, and TRAX International. The collective FY 2007 value of the
contract actions was $12.9 million. Under the terms of the joint venture agreement,
Northrop Grumman was entitled to $1.3 million of the funding that the DTC added to the
contracts during FY 2007. Specifically, contract W9124Q-07-C-0504 required members of
the joint venture to:
       You shall provide all management, administrative, supervisory, and technical support for
       WSMR [White Sands Missile Range] Mission Support Services in support of WSMR
       ATEC/DTC and the High Speed Track (Holliman Air Force Base) in the areas of program
       management, mission support, maintenance, services, open work assignment orders
       (WAO’s), completed WAOs and reports.

NewTec was assigned to perform the following FCS-related tasks under the following
work assignment orders:
           WAO A005 – M&S Integrated Remote Enabled Camera Management (FIRECAM)

       3.3 NEWTEC [The New Mexico Technology Group] will demonstrate an initial prototype
       system for evaluation and a follow-on demonstration system with expanded capabilities
       including a multi-format point-to-point capability for FCS use.

              WAO A008 – FCS Real-Time Information Fusion Learning Engine (RIFLE)

       3.3 NEWTEC will demonstrate an initial prototype system for evaluation utilizing data
       formats deemed to be of high priority for initial FCS testing.

                                  WAO A017 – FCS Graphic Support

       3.1 NEWTC will provide assistance in testing the WSMR Test Support Network (TSN),
       GE Campus Ring Network, Local Network IRCC, and remote distribution network.
       3.3 NEWTEC will support a variety of planning preparation, and test efforts for Experiment
       1.1 and Spin Out 1 testing.

                  WAO A032 – Future Combat Systems Battlespace Real-Time Video

       NEWTEC will develop a plan for the design and integration of an ICAT [Integrated
       Compact semi-Autonomous Tracking system] into the FCS and WSMR infrastructure. The
       preliminary plan will show how a small suite of ICAT instruments would be positioned in
       an FCS operational environment to collect imagery data of the FCS entities on the ground
       from an elevated position.

                                   WAO A067 – FCS Range Support

       The scope of this Work Assignment Order (WAO) will provide FCS support for
       [Experiment 1.1] Phase II and Phase III efforts as well as planning efforts for Spin out 1.



                                           40
                                 FOR OFFICIAL USE ONLY
In addition, under contract DAAD07-00-C-0226, the joint venture furnished scientific,
engineering, technical, administrative, operation, maintenance, and support services in
support of the Electronic Proving Ground’s test mission, to include the following:
       3.6 Test Engineering. The contractor shall provide test engineering services, including test
       operations and test support.

       3.6.1 Test Operations. The contractor shall provide test operations to include test planning
       and design, execution, and reporting.

       3.6.1.1 Test Planning and Design. The contractor shall analyze technical and data
       requirements, explore different testing approaches to arrive at optimum test methods,
       prepare detailed test plans and test procedures, determine instrumentation requirements, and
       form test teams as required.

       3.6.1.2 Test Execution. The contractor shall operate equipment and Systems Under Test in
       accordance with manufacturer's and other applicable instructions, and local requirements. In
       some instances, test vehicles, systems, and instrumentation may not have documentation
       available. The contractor shall perform laboratory and field tests at singular or multiple
       distributed locations including Fort Huachuca, and other locations and facilities worldwide,
       and within schedules specified. The contractor may be required to participate in or witness
       the conduct of another contractor's test and evaluate the data acquired during testing. All
       data collected shall be documented during testing in accordance with the data collection
       plan. All test data acquired during the course of testing shall be reviewed and interpreted
       considering factors such as consistency, completeness, applicability, accuracy, and
       usability.

       3.6.1.3 Test Reporting. The contractor shall prepare test documentation and review,
       interpret and report on the test data acquired.

       3.6.2 Test Support. The contractor shall support testing by providing, operating and
       maintaining instrumentation, data reduction, and analysis systems, communications
       networks, video systems, land surveys, equipment operators, and data collectors.

       3.6.2.1 Instrumentation. The contractor shall use and maintain test instrumentation,
       automated test tool software, and special purpose computer equipment in support of EPG
       testing requirements. These tools include embedded computer system stimulator/drivers,
       hardware emulators, software, protocol interfaces, firmware, test instrumentation and other
       devices.

       3.6.2.2 Data Collection, Reduction and Analysis (DCRA). The contractor shall identify and
       determine DCRA techniques and processes necessary to satisfy the requirements outlined in
       the detailed test plan. The contractor shall determine techniques, processes, and operational
       procedures to integrate and automate the DCRA of test data. As required, the contractor
       shall plan and conduct rehearsals and dry runs, in conjunction with the range and test
       officers, to verify DCRA plans and procedures. Further, the contractor shall perform
       manual or automated data collection, reduction, and analysis, to include editing and
       assessment of test data as outlined in the detailed test plan.

       3.7 Research and Development.

       3.7.1 Instrumentation Development. The contractor shall conduct research and development
       to support testing with innovative, technically advanced, efficient and cost effective
       methods, models and simulations, and instrumentation.



                                            41
                                  FOR OFFICIAL USE ONLY
       3.7.2 Modeling and Simulation. The contractor shall develop, adapt and use models to
       simulate and evaluate system performance in realistic operational environments.

       3.7.3 Database Development. The contractor shall develop, populate, maintain, and update
       databases containing technical, equipment, parametric or deployment information to
       support a variety of test and evaluation activities such as field testing, hardware-in-the-loop
       testing, controlled environment or laboratory testing, in addition to traditional simulation
       and modeling efforts.

       3.7.4 System Development. The contractor shall provide support in the area of research,
       design, development and modification of systems, including hardware, software, and
       system integration.

OCI Solicitation and Contract Provisions. The OCI clauses included in contracts
W9124Q-07-0504 and DAAD07-00-C-0226 did not adequately outline the prohibition that
10 U.S.C. 2399 placed on system developers participating in the testing and evaluations
their systems and relied solely on prospective offerors to self-identify potential conflicts.
Specifically, the OCI provisions only required:

                                        Contract W9124Q-07-0504

       (a) The offeror or Contractor warrants, that to the best of the Contractor’s knowledge and
       belief, that there are no relevant facts or circumstances which could give rise to an OCI, as
       defined in FAR 9.505-1 through 9.505-4 or other applicable law or regulation.

                                       Contract DAAD07-00-C-0226

       a. To prevent conflicting roles which may bias the contractor's judgment or objectively, or
       to preclude the Contractor from obtaining an unfair competitive advantage in concurrent or
       future acquisitions, the Contractor will be restricted as set forth in paragraph c below.
                          .        .        .          .         .         .        .
       c. The following rules apply:

       1. The Contractor agrees that if it has participated in (or is participating in) the
       development, production or testing of a system for a military department or Defense
       Agency (or another contractor of the Department of Defense), it is prohibited from
       involvement in any way, from the time of subtask award to two years after subtask
       completion, in providing services with regard to the operational test and evaluation of the
       system and in the establishment of criteria for data collection, performance assessment or
       evaluation activities for the operations test and evaluation of that system. This limitation
       does not apply to a contractor that has participated in such development, production or
       testing solely as a representative of the Federal Government (note the word "representative"
       is directly from Section 819 of the Defense Authorization Bill dated 5 October 1992).

       2. The Contractor will participate in the technical evaluation of other Contractors’ proposals
       or products. To ensure objectively, the Contractor is precluded from award of any supply
       or service contract or subcontract for its major components. This restriction shall be
       effective for two years after subtask completion. This does not apply to other technical
       evaluation concerning the system.

Disclosure and Government Evaluation. NewTec, the successful offeror, did not
disclose that it possessed any OCIs when it concluded that although Northrop Grumman,
CSC, and Lockheed Martin received part of the joint venture’s profit and had

                                             42
                                   FOR OFFICIAL USE ONLY
representation on NewTec’s Board of Directors, no OCI existed because it considered its
parent companies’ involvement passive in nature. According to a representative from the
joint venture, the parent companies were not involved in NewTec’s day-to-day
decisionmaking and in the event that NewTec needed to obtain subject matter expertise
from one of its parent companies, the employees providing the expertise were required to
terminate their employment with the parent company and become joint venture employees.
As a result, the Army contracting activity did not detect that it had hired a number of the
major FCS subsystem developers to operate one of the test centers scheduled to be used for
operational test and evaluate of the FCS.

The recommendation made to DTC in this report addresses this issue.

Operational Test and Evaluation Activities
Army Evaluation Center
AEC funded work with Northrop Grumman for advisory and assistance services related to
FCS under two contract actions. The collective FY 2007 value of the actions was
$3.3 million. Specifically, under Delivery Orders 5 and 23, awarded against multiple-
award indefinite-delivery, indefinite-quantity contract W91CRB-06-D-0013, Northrop
Grumman was tasked to perform the following:
       4.1 Task 1. Evaluation Event Planning. The contractor shall participate in the input to the
       development, editing, and review of the UGS ISR [Intelligence, Surveillance, and
       Reconnaissance] FCS Platform level System Evaluation Plan (SEP) or UGS ISR FCS
       C4ISR Operational Capability level SEP. Particular emphasis shall be focused to the
       evaluation strategy, analysis methodology and the data management process (i.e. Baseline
       Correlation Matrix, Data Source Matrix, and Evaluation Dendritic). The contractor shall
       participate in ABC evaluation strategy (i.e., ESR, CIPR, Rock Drill) to collect data, which
       will refine the government's developed Measures of Effectiveness (MOEs) and Measures of
       Performance (MOPs) to answer the COICs or its mission need. Once the measures are
       completely developed, the contractor shall participate in the formalizing an UGS ISR
       system' evaluation strategy. Contractor input to the evaluation strategy will be used to map
       the evaluation measures to DT/OT or various operational events (i.e., Spin Outs, …).
                          .        .       .         .        .        .        .
       4.2.2 The contractor shall review the developmental test and conduct analysis of the data
       and reports to support the technical assessment of the system's readiness and maturity for
       Spin Outs (SO) during FCS System Development and Demonstration (SDD) phase. The
       contractor shall address the technical measures of effectiveness and performance outlined in
       both UGS ISR and UGS ISR for FCS UA Family of System (FoS) and System of System
       (SoS) SEP.
                          .         .        .       .         .        .       .
       4.3.1 The contractor shall develop the UGS ISR database to satisfy the data reduction,
       management, and analysis of the UGS ISR's technical and operational test data. The
       contractor shall become knowledgeable of the UGS ISR proponents' data collection formats
       (instrumentation and data collection forms) to enable the transfer of technical data to the
       UGS ISR database. The database system will include effective quality control methods and
       procedures. The contractor shall manage and perform data entry of the UGS ISR data. As
       determined by COR, a data authentication process will be used to ensure data are correct
       before release of data to outside agencies.


                                            43
                                  FOR OFFICIAL USE ONLY
OCI Solicitation and Contract Provisions. The solicitation that the Research,
Development, and Engineering Command issued to solicit proposals from private industry
to satisfy the AEC’s requirements included the following clause to prohibit system
developers from fulfilling the command’s requirements.

         13.1 Title 10, US Code, Section 2399, and DOD/Army policy prohibit persons employed
         by the contractor for the system being developed from participating in the operational test
         and evaluation of that system. The only exception is where it is planned for system
         contractor employees to be involved in the operation, maintenance, or other support of the
         system when deployed in combat. Consequently, all parties must be sensitive to actual or
         potential conflicts of interest where contractors could be or are involved in the operational
         testing of their own equipment or weapons systems. Such involvement is strictly
         prohibited, and unlike other types of organizational conflicts of interest, cannot be
         overcome or cured by mitigation plans. [Emphasis Added]

The clause clearly states that DoD and Army policy prohibit persons employed by the
contractor involved in developing a system from also participating in the operational test
and evaluation of that system. The clause also notes that “such involvement is strictly
prohibited and, unlike other types of [OCIs], cannot be overcome or cured by mitigation
plans.” The solicitation also included the following passages requiring Northrop Grumman
to immediately inform the Government if a scope of work that it was asked to perform
requires it to supply technical support related to systems or projects with which it was
already involved.
         13.3.1.2 If performance of any SOW requires the contractor (to include subcontractors) to
         supply technical support related to systems or projects with which the contractor is already
         directly concerned, either by prime or subcontract, the contractor shall so immediately
         inform the Contracting Officer. The SOW may be withdrawn if a conflict is found. The
         Contractor shall not undertake performance of any SOW which requires it to supply
         technical support regarding such systems until the notice is given, and written consent to
         proceed is issued by the Contracting Officer.

OCI Disclosure and Government Evaluation. Northrop Grumman included the
following passages in an attachment to the proposal it submitted for its multiple-award
indefinite-delivery, indefinite-quantity contract to address its procedures for addressing
OCIs.




                         .        .         .        .        .        .        .




                                            44
                                  FOR OFFICIAL USE ONLY
Northrop Grumman did not disclose that it possessed any OCIs that would impact its
impartiality with respect to the specific requirements of Delivery Orders 5 and 23. In fact,
for Delivery Order 23, Northrop Grumman’s Contracts Manager certified that Northrop
Grumman Space and Mission System Corporation’s Command and Control Systems
Division had conducted a review of the company’s operations. The Contracts Manager
determined that it had not participated, and was not participating, either by prime or
subcontract, in the development, production, or testing of the Unattended Ground Sensor
Intelligence, Surveillance, and Reconnaissance for a DoD program or project manager,
military department, Defense agency, or another contractor of the Department of Defense.

We were unable to determine how the contracting officer concluded that the business
isolation procedures that Northrop Grumman described in the proposal it submitted for the

                                        45
                              FOR OFFICIAL USE ONLY
overall contract was consistent with the OCI provisions of 10 U.S.C. 2399 or the OCI
clause contained in their overall contract. However, based on documentation contained in
the contract files, it appears the contracting officer concluded that Northrop Grumman
possessed no OCIs related to the requirements of either delivery order. The Management
Decision Document for Delivery Order 5 states that “The contractors (to include parent and
subsidiaries) do not provide service support related to the system developers” and “No
potential conflicts have been identified.” In addition, according to an AEC representative,
the contracting activity performed a legal review prior to awarding Delivery Order 23 that
determined Northrop Grumman had no OCI relating to the continuous evaluation effort for
the Unattended Ground Sensor system. The representative further stated that the
determination was based on the fact that Northrop Grumman was a developer for the Class
IV Unmanned Aerial Vehicle, the Decision Support System, and the Network Management
System, all of which were completely separate from the FCS Spin-Out 1 Unattended
Ground Sensor system, and Northrop Grumman played no role in the development of that
system.

We believe the tasks that Northrop Grumman was assigned to perform under these delivery
orders contradicts the restrictions outlined in 10 U.S.C. 2399. A contractor that has
participated in (or is participating in) the development, production, or testing of a system
for a military department or Defense Agency (or for another contractor of the Department
of Defense) may not be involved (in any way) in the establishment of criteria for data
collection, performance assessment, or evaluation activities for the operational test and
evaluation of that system. Northrop Grumman is involved in the development of FCS. The
Unattended Ground Sensor system is one of FCS subsystems; and therefore, Northrop
Grumman has a relationship that may impact its ability to perform the work covered by the
delivery orders.

The recommendation made to AEC in this report addresses this issue.

Computer Sciences Corporation
During 2007, CSC was under contract to help develop FCS, as well as provide systems
advisory and assistance services to the DTC and OTC.

FCS Development
CSC helped develop the Training Support Package for the FCS and is supporting General
Dynamics manned ground vehicle development efforts. CSC received an estimated
$54 million for its developmental efforts.

Providing Systems Engineering and Technical Direction
Developmental Test Command
CSC also provided systems engineering and technical direction to three developmental test
facilities through NewTec’s joint venture with Northrop Grumman, Lockheed Martin, and
TRAX International. As stated previously, the joint venture supported, operated, and
maintained test operations at the White Sands Missile Range, the High Speed Test Track,
and the Electronic Proving Ground under contracts W9124Q-07-C-0504 and
                                        46
                              FOR OFFICIAL USE ONLY
DAAD07-00-C-0226. Under the terms of its joint venture agreement, CSC is entitled to
$7.6 million of the funding that DTC added to the contracts during FY 2007.

OCI Solicitation and Contract Provisions and OCI Disclosure and Government
Evaluation. As stated previously, the OCI provisions included in the contract did not
adequately outline the prohibition that 10 U.S.C. 2399 places on system developers
participating in the testing and evaluation of their systems and relied solely on prospective
offerors to self-identify their potential conflicts. Consequently, NewTec did not disclose
that it possessed any OCIs because it erroneously concluded that although Northrop
Grumman, CSC, and Lockheed Martin received part of the joint venture’s profit and had
representation on NewTec’s Board of Directors, no OCI existed because it considered its
parent companies’ involvement passive in nature. As a result, the Army contracting
activity did not detect that it had hired a joint venture of a number of the major FCS
subsystem developers to operate one of the test centers being used to operational test and
evaluate the FCS.

The recommendation previously made to DTC in this report addresses this issue.

Operational Test Command
OTC funded work with CSC for advisory and assistance services related to FCS under one
contract action awarded to the Test and Experimentation Services Company. The Test and
Experimentation Services Company was an unpopulated joint venture that CSC entered
into with the Electronics Warfare Associates Services, Incorporated. Unlike regular joint
ventures, under this arrangement, the members of the joint venture retained their own
corporate identity and only share in the profits and losses associated with the work that
their employees actually perform. The FY 2007 value of the contract action was $42.0
million. Specifically, under contract DATM01-02-C-0004,9 the Test and Experimentation
Services Company provided the following support to the command’s operational test,
investigation, and experimentation mission related to FCS’s Spin-Out 1 Limited User Test.
The contract stated:
          WAO 7700 – Future Combat System Future Combat Systems (FCS) Spin Out 1 (SO1)
          Limited User Test (LUT)

          The purpose of S01 LUT is to test and evaluate the FCS systems and small representative
          Family of Systems (FoS) elements (sections/squads/platoons) capabilities to perform
          required tasks and missions in an operationally realistic live and virtual environment. The
          demonstration of IPD Exit Criteria will also be included as part of S01 LUT.
                            .        .        .         .        .         .       .
          The SO 1 LUT will be structured to provide the needed information to support evaluation
          of the SO 1 capabilities provided the HBCT and to determine the potential for individual
          systems to achieve FCS core program requirements. The SO l LUT will use live elements
          of the Evaluation Brigade Combat Team (EBCT) to conduct company and platoon
          offensive and defensive operational missions. The missions will be conducted in complex
          terrain environments which include integrated urban areas.




9
    Contract number DATM01-02-C-0004 was renumbered as contract W91154-07-C-0001.
                                              47
                                    FOR OFFICIAL USE ONLY
OCI Solicitation and Contract Provisions. To obtain unbiased operational test,
investigation, and experimentation support, the Army Test and Evaluation Command
Mission Support Contracting Activity included the following OCI clause in the solicitation
it issued.
       Title 10 USC 2399 prohibits the involvement of defense contractors in the operational test
       and evaluation of weapons systems and equipment. Consequently, all parties must be
       particularly sensitive to potential, actual, or perceived organizational conflicts of interest
       where contractors are or appear to be involved in the operational testing of their own
       equipment or weapons systems. Such involvement is strictly prohibited. The Contractor
       acknowledges that it is familiar with Title 10 USC 2399 and FAR 9.5 and agrees that it will
       avoid conflicts of interest and, to the maximum possible extent, the appearance of conflicts
       of interest, in accordance with the principles set forth in the Statute and FAR.

The clause clearly states that 10 U.S.C. 2399 prohibits the involvement of Defense
contractors in the operational test and evaluation of their own weapons systems. The
clause also contained the following passage that required the Test and Experimentation
Services Corporation to inform the contracting officer if it was required to supply technical
support related to a system they were already directly involved.

       If performance of any Work Authorization Order requires the contractor to supply technical
       support related to systems or projects with which the contractor is already directly
       concerned, either by prime or subcontract, with either another firm or the Government,
       including, and particularly, the cognizant Department of Defense Program or Project
       Manager, the contractor shall so immediately inform the Contracting Officer. The Work
       Authorization Order may be withdrawn in writing at the discretion of the Contracting
       Officer without recourse by the contractor.

OCI Disclosure and Government Evaluation. In their proposal, the Test and
Experimentation Services Company informed the contracting officer that it possessed OCIs
with respect to the work to be performed under the work authorization orders. However,
the company proposed that CSC’s partner perform all the work under the contract. Thus,
the Director of Contracts stated that based on that fact, the command concluded that
awarding the scope of work to the Test and Experimentation Services Company did not
violate Title 10’s OCI restrictions because CSC would not share in any of the profit derived
from the contract.

We believe this arrangement violates the intent of 10 U.S.C. 2399 because it presents the
opportunity for CSC to control the company’s staffing structure to work on tasks where
they could potentially influence the operational test and evaluation of technology that it
helped develop by transferring their employees to Electronic Warfare Associates Services,
Incorporated. According to the Director of Contracts, should the Test and
Experimentation Services Company need the expertise of one of CSC’s employees, they
would merely terminate their employment with CSC and become an employee Electronic
Warfare Associates Services, Incorporated to perform the work.

OTC should determine whether it is appropriate to obtain advisory and assistance services
from CSC or any other contractor that has significant involvement in the development of


                                            48
                                  FOR OFFICIAL USE ONLY
DoD systems that the command is or will be overseeing. If the Commander determines it
is essential to use the same contractor, appropriate waiver procedures should be followed as
required by FAR Subpart 9.5 for non-10 U.S.C 2399 support.

General Dynamics
During 2007, General Dynamics was under contract to help develop FCS, as well as
advisory and assistance services to the OTC.

FCS Development
General Dynamics developed the manned ground vehicles for the FCS. Specifically,
General Dynamics developed the Command and Control Vehicle, the Reconnaissance and
Surveillance Vehicle, and the Mounted Combat System, which provide capabilities, such as
battle command, control, and communications for the tactical commander; discrimination
of multiple target sets; and offensive maneuver capabilities to close with and destroy
enemy forces. In addition, General Dynamics also provided the Autonomous Navigation
System, Sensor Data Management, and Integrated Computer System for the FCS. During
FY 2007, General Dynamics received about $3.9 billion for its developmental efforts.

Operational Test and Evaluation Activities
Operational Test Command
OTC funded work with General Dynamics for advisory and assistance services related to
FCS under one contract action. The FY 2007 value of the action was $7.0 million.
Specifically, after acquiring FC Business Systems, General Dynamics provided the Air
Defense Artillery Test Directorate with planning, coordination, data collection (automated
and manual), data reduction, management, and report generation support under General
Services Administration’s “Millennia Lite” contract GS07T00BGD024 task order
MW215ADA01T5, including assisting in evaluating the effectiveness and suitability of the
FCS. The task order’s statement of work states:
       The contractor will furnish required services to provide systems hardware and software
       development and maintenance for business and scientific/engineering applications.
       Additionally, the contractor will support task efforts in the areas of planning, coordinating,
       data collection (automated/manual), data reduction, management, and report generation for
       the FCS system. The following areas, as a minimum, are required for support:

               System performance analysis for planning, data collection,
                reduction, analysis, and reporting
               Instrumentation research and development
               Manpower and Personnel Integration (MANPRINT) planning, data
                collection, reduction, analysis, and reporting
               Reliability and Maintainability (RM) planning, data collection, reduction,
                analysis, and reporting
               Analog and digital communications
               Clerical support
               Data collection to include training
               Data reduction
               Data entry


                                            49
                                  FOR OFFICIAL USE ONLY
               Electronic technician support for installation, maintenance, and operation
                of required instrumentation
               Computer operations/data management
               Data Management
               Local Area Network (LAN) Operations
               Computer Operations and H/S Accountability Operations

OCI Solicitation and Contract Provisions. The following clause was included in the
General Services Administration “Millennia Lite” conformed contract GS07T00BGD024
to inform prospective contractors of the potential for OCIs.

       Under this contract, the Contractor may be tasked to help prepare for and/or conduct an IT
       acquisition. In such cases, the Contractor may be required to sign an organizational conflict
       of interest statement in which the Contractor (and any subcontractors or teaming partners)
       agree not to submit a proposal , or provide support to a proposing firm (either prime or
       subcontractor) which is submitting a proposal, under any solicitation resulting from the
       work performed in the Millennia Lite task. The Government will strive to identify this type
       of situation in the Task Order Request. All potential conflict of interest situations shall be
       handled in accordance with FAR 9.5.

In addition, to obtain unbiased support, the General Services Administration included the
following clause in task order MW215ADA01T5.

       To avoid any real or perceived conflict of interest between manufacture of items being
       tested and contractor performing tests, please review 10 USC 2399 and respond.
       Information you provide will be reviewed and may be researched. Government will decide
       whether a conflict of interest is present and will act appropriately.

The OCI provisions prohibited FC Business Systems from satisfying requirements resulting
from its work under the contract, and the task order issued to support the OTC Air Defense
Artillery Test Directorate’s mission requirements included additional restrictions to prevent
FC Business Systems from operationally testing equipment it helped manufacture.
However, the provisions did not require FC Business Systems to inform the Government of
its acquisition by General Dynamics. As a result, the OTC and General Services
Administration did not detect that General Dynamics, one of Boeing’s major FCS
development subcontractors (after acquiring the FC Business Systems) was helping the
command plan, coordinate, collect, and reduce data used to evaluate the effectiveness and
suitability of the FCS, a clear violation of the OCI provisions in 10 U.S.C. 2399.

The recommendation made to OTC in this report addresses this issue.

Lockheed Martin
During 2007, Lockheed Martin was under contract to help develop FCS, as well as provide
systems engineering and technical direction to DTC.

FCS Development
Lockheed Martin provided the FCS with the Centralized Controller, Armed Robotic
Vehicle, Multifunctional Utility/Logistics and Equipment vehicles, Non-Line-of-Sight


                                            50
                                  FOR OFFICIAL USE ONLY
Launch System, and the Training Instrumentation Architecture. During FY 2007,
Lockheed Martin received an estimated $648 million for its developmental efforts.

Providing Systems Engineering and Technical Direction
Developmental Test Command
Lockheed Martin also provided systems engineering and technical direction to three
developmental test facilities through NewTec’s joint venture with Northrop Grumman,
CSC, and TRAX International. As stated previously, the joint venture supported, operated,
and maintained test operations at the White Sands Missile Range, the High Speed Test
Track, and the Electronic Proving Ground under contracts W9124Q-07-C-0504 and
DAAD07-00-C-0226. Under the terms of its joint venture agreement, Lockheed Martin is
entitled to $4.0 million of the funding that DTC added to the contracts during FY 2007.

OCI Solicitation and Contract Provisions and OCI Disclosure and Government
Evaluation. The OCI provisions included in the contract did not adequately outline the
prohibition that 10 U.S.C. 2399 places on system developers participating in the testing and
evaluation of their systems and relied on prospective offerors to identify their potential
conflicts. Consequently, NewTec did not disclose that it possessed any OCIs because it
erroneously concluded that although Northrop Grumman, Computer Science Corporation,
and Lockheed Martin received part of the joint venture’s profit and had representation on
NewTec’s Board of Directors, no OCI existed because it considered its parent companies’
involvement passive in nature. As a result, the Army contracting activity did not detect that
it had hired a joint venture of a number of the major FCS subsystem developers to operate
one the test centers being used to operational test and evaluate the FCS.

The recommendation made to DTC in this report addresses this issue.

Implementation of Prior Audit Corrective Measures
The policies, procedures, and internal control changes that we recommended in DoD IG
Report Number 91-115, “Consulting Services Contracts for Operational Test and
Evaluation,” August 22, 1991, related to the extensive use of service contractors and OCIs
were never fully implemented.

Extensive Use of Service Contractors
In our 1991 report, we reported that DOT&E and the test agencies, lacking sufficient
in-house civilian staff to perform their mission, depended on services contractors for
program continuity and the corporate knowledge needed to plan, analyze, and report
operational tests. We also reported that they frequently used the same contractors to
support the operational tests for major Defense acquisition systems that also participated in
the development of the systems. At that time, we recommended that the advisory and
assistance services performed at the various test agencies be brought in-house; however,
DOT&E and the test agencies disagreed that such action was necessary because they stated
that they believed their reliance on services contractors for fulfilling their mission



                                        51
                              FOR OFFICIAL USE ONLY
requirements was temporary and intermittent; however, as Figure 2 shows, that reliance
seems more long-term in nature.
                               50
                                                                                               4 2 .6
                               45
                                                                  3 9 .2
                               40
                                                          3 5.6
                               35                                                                       3 3 .4
             Cost (millions)


                               30
                               25             2 1.5
                                     19 .5
                               20

                               15
                                                                                 8 .9   9 .8
                               10

                                5
                                0
                                    1987-1990            1987-1990             1987-1990           2007
                                                        Adjusted for         Annual Average
                                                         Inflation
                                                                     Years

                                             Contractor Services
                                             Federally Funded Research & Development Centers


Figure 2. DOT&E Support Services Contracting Costs

Adjusted for inflation,10 the amount and the percent of dollars spent on contracted advisory
and assistance services by DOT&E has increased since our previous audit. From FY 1987
through FY 1990, DOT&E spent an average of about $8.9 million (annual average adjusted
for inflation) on advisory and assistance services (contractor services) and about
$9.8 million for support from federally funded research and development centers. By
FY 2007, DOT&E was spending about $42.6 million for contractor services, which is an
increase of more than 375 percent. In addition, the percent that DOT&E was spending on
contractor advisory services now exceeded the amount spent for support from federally
funded research and development centers. DOT&E advised the majority of the increased
funding for contracted advisory and assistance services noted in this section of the report,
occurred because DOT&E was assigned additional responsibilities by Congress and the
Administration during the period spanning 1990-2009 not associated with its 10 U.S.C.
2399 roles and responsibilities, and these additional responsibilities accounted for the
majority of the increased service contract expense.

In an April 06, 2009, briefing Secretary of Defense Robert M. Gates stated:
        … we must reform how and what we buy, meaning a fundamental overhaul of our approach
        to procurement, acquisition, and contracting.
                          .         .       .         .  .      .        .



10
   We adjusted the dollars DOT&E spent on contracted advisory and assistance services for inflation using
the U.S. Bureau of Labor Statistics Consumer Price Index Inflation Calculator to calculate 1987 dollars
buying power in 2007.
                                                                52
                                                      FOR OFFICIAL USE ONLY
           This budget will support these goals by increasing the size of defense acquisition
           workforce, converting 11,000 contractors and hiring an additional 9,000 government
           acquisition professionals by 2015 – beginning with 4,100 in FY10. Fully reforming defense
           acquisition also requires recognizing the challenges of today’s battlefield and constantly
           changing adversary. This requires an acquisition system that can perform with greater
           urgency and agility. We need greater funding flexibility and the ability to streamline our
           requirements and acquisition execution procedures. The perennial procurement and
           contracting cycle – going back many decades – of adding layer upon layer of cost and
           complexity onto fewer and fewer platforms that take longer and longer to build must come
           to an end. There is broad agreement on the need for acquisition and contracting reform in
           the Department of Defense. There have been enough studies. Enough hand-wringing.
           Enough rhetoric. Now is the time for action.

In addition, provisions contained in recent legislation provide an excellent opportunity for
DOT&E, the FCS Program Office, and the Army test agencies to bring work in-house and
rebuild the agency expertise needed to perform its oversight mission as we go forward.
Specifically, Section 2463, Title 10, U.S.C. directs the Department to give special
consideration to using DoD civilian employees to perform certain categories of functions
and to use the inventory of contractors to identify those functions. The guidelines and
procedures state that DoD Components can use DoD civilian employees to perform new
functions or functions that are performed by a contractor if an economic analysis shows
that DoD civilian employees are the low-cost provider, or the DoD Component has
determined, consistent with DoD Instruction 1100.22, “Guidance for Determining
Workforce Mix,” that the function under review is inherently governmental or exempt from
private sector performance. In addition, certain services and actions that are not considered
to be inherently governmental functions may approach being in that category because of
the nature of the function, the manner in which the contractor performs the contract, or the
manner in which the Government administers contractor performance. We believe much of
the work performed under the DOT&E services contracts could be closely associated with
the performance of inherently governmental functions and eligible to be performed by DoD
civilians.


The management and control of such programs must be firmly in the hands of
full-time Government officials clearly responsible to the President and the
Congress. (1962 Report to President Kennedy on Government contracting for Research and Development)


DOT&E, the FCS Program Office, and the various U.S. Army test commands should
determine whether their advisory and assistance services requirements would be more
appropriately met by in-house Government employees.

OCIs
In response to DoD Inspector General Report No. 91-115, DOT&E agreed to amend DoD
Instruction 5000.2, “Operation of the Defense Acquisition System,”11 to require each
program manager to maintain a list of advisory assistance service contractors used during


11
     Formerly titled, “Defense Acquisition Management Policies and Procedures.”
                                               53
                                     FOR OFFICIAL USE ONLY
development, production, or testing that contracting officers could use to ensure that those
contractors were barred from operational testing to preclude any OCI, whether real or
apparent. DOT&E also agreed to develop a standard OCI clause that precluded advisory
assistance contractors from participating in the development, production, or testing and in
the operational test and evaluation of the same systems. However, it appears DoD never
fully implemented the corrective measures.

Our audit followup case file for the report indicates that on October 21, 1991, the Deputy
Director of Operational Test and Evaluation (Resources and Administration) proposed to
the Director for Acquisition Policy and Program Integration that DoD Instruction 5000.2 be
amended to require each program manager to maintain a list of advisory assistance service
contractors used during development, production, or testing. The file also indicates that the
Deputy Director submitted a draft OCI clause to the Director of Defense Procurement for
review, modification, and incorporation into the Defense Federal Acquisition Regulations.
However, based on information gathered during our discussions with representatives from
the FCS Program Office, DOT&E, and the various U.S. Army test and evaluation agencies
and our review of the current DoD Instruction 5000.2 and the OCI provisions of the
Defense Federal Acquisition Regulations; none of the corrective measures were ever fully
implemented.

The Director, Defense Procurement and Acquisition Policy should develop a standard
advisory and assistance services OCI clause, which precludes contractors that are involved
in the development, production, or testing of a system for a military department from
providing technical advice to the program office for that system or from participating in
activities impacting the operational test and evaluation of that system unless appropriate
waivers are obtained. The clause should make it incumbent on the proposing contractor to
identify in their proposal any work that that they are or have performed either under prime
contract or subcontract related to the development or supply of a DoD system. The clause
should also require the contractor to disclose any changes that could create potential
conflicts during the life of the contract, and potentially require a recertification of
disclosure of any changes upon execution the annual option to extend the contract. The
Director also needs to emphasize to the acquisition community the importance of
complying with FAR Subpart 9.5 and the significance of not placing contractors in
positions to make decisions that favor their own capabilities and that any decisions to
waive the requirements must be adequately supported and documented in the contract files.

Conclusion
FAR Subpart 9.5 directs contracting agencies to take measures to detect and mitigate actual
and potential OCIs. Contracting officers must exercise common sense, good judgment, and
sound discretion when analyzing whether a significant potential conflict exists and, if it
does, take appropriate steps to resolve it. However, in practice, as highlighted in the report,
contracting officers and agencies have encountered difficulties implementing appropriate
OCI avoidance and mitigation measures. The solicitation provisions and contract clauses
that DOT&E, the Army FCS Program Office, and the Army test agencies used to prevent
FCS development contractors from providing technical direction or supporting the
operational test and evaluation of the system did not prevent the same contractors from

                                         54
                               FOR OFFICIAL USE ONLY
supporting development. We also didn’t identify any waivers to support and document
decisions to use the same contractors when a conflict of interest was apparent.


Director of Operational Test and Evaluation Management
  Comments on the Finding and Our Response
The Director provided comments on the recommendations and on the draft report in
an attachment. We have addressed the significant issues identified in the
attachment in this section and made other minor changes to the report where
appropriate.

Comments on ETAS Support. The Director disagreed that the contractual
relationships between DOT&E and SAIC resulted in an actual organizational
conflict of interest and that the ETAS contract does not violate 10 U.S.C. 2399.
The Director stated that none of the tasks listed in the report involve SAIC
personnel in the development of test requirements, test planning, or evaluation of
test data for individual acquisition programs. The Director also stated that he did
not believe that any of the tasks that involve SAIC personnel providing services
related to the test and evaluation of a single system. ETAS deliverables constitute
analytical support only and are not recommendations to the Government concerning
the development of policy affecting operational test and evaluation. For these
reasons, the Director disagreed that some of the support provided by SAIC under
the ETAS contract may indirectly crossover into its 10 U.S.C. 2399 responsibilities.
Further, the Director stated that DOT&E uses the Institute for Defense Analyses
and MITRE, both Federally Funded Research and Development Centers, to support
its 10 U.S.C. 2399 responsibilities.

Our Response. The report did not state that the contractual relationship between
DOT&E and SAIC created an actual organizational conflict of interest as defined
by 10 U.S.C. 2399. However, the report did question the judgment of DOT&E
using SAIC, a system developer of the FCS, in direct contradiction of the ETAS
solicitation and contract provisions that explicitly stated “offerors and providers are
excluded from this contract who have significant involvement in the development
of DoD systems that are under, or will be under DOT&E oversight.” In addition,
DOT&E did not address its FAR Subpart 9.5 responsibilities to determine whether
it’s appropriate to obtain ETAS from development or production contractors and if
necessary, obtain appropriate waivers.

Comments that the Allegations Were Not Substantiated. The Director did not
agree that the hotline allegations were substantiated because DOT&E relies on
FFRDCs for all 10 U.S.C 2399 responsibilities related to oversight of operational or
live fire testing of weapons systems. The Director stated that there was no evidence
that DOT&E misrepresented the role of the LSI. The Director also did not agree
that SAIC is its “primary contractor” because it creates the impression that SAIC
provides core support for DOT&E 10 U.S.C. 2399 responsibilities.

                                         55
                               FOR OFFICIAL USE ONLY
Our Response. The allegations were substantiated as described in Appendix B.
The solicitation and contract provisions explicitly excluded offerors and providers
from the contract who had significant involvement in the development of DoD
systems that are under, or will be under, DOT&E oversight. SAIC had significant
involvement in the development of the FCS,                                   and
should have been excluded from the contract. To avoid any confusion between the
term “primary contractor” and FFRDC, we changed the term “primary contractor”
to “primary commercial contractor” throughout the report.

Comments on Internal Controls and the Use of Good Judgment and Common
Sense. The Director disagreed that DOT&E and the Army did not exercise the
good judgment and sound discretion needed to prevent the existence of conflicting
roles that might bias a contractor’s judgment or provide it an unfair competitive
advantage as required by 10 U.S.C. 2399, “Operational Test and Evaluation of
Defense Programs,” and FAR Subpart 9.505-1, “Providing Systems Engineering
and Technical Direction.” The Director stated that the contractual scope of work,
DOT&E’s internal structure, and the actual duties performed by SAIC personnel are
such that no conflicting roles existed. He further stated that the report does not
demonstrate a conflicting role concerning SAIC contracts or evidence of biased
contractor judgment or competitive advantage for the contractor.

Our Response. We disagree. DOT&E had no procedures to prevent it from
awarding a contract for advisory services to a contractor that had significant
involvement in the development of DoD systems that are under, or will be under,
the Director’s oversight. In addition, there was no documentation to support
whether potential OCIs were ever evaluated and appropriately resolved.

Comments on Discontinuing ETAS Support for Live Fire Test and Evaluation.
The Director commented that DOT&E discontinued senior technical support for the
ETAS contract for Live Fire Test and Evaluation in 2007.

Our Response. We agree that the task should not have been awarded to SAIC.

Comments on Government OCI Evaluation for ETAS Contract. The Director
did not agree with the conclusion that there was no evaluation of the SAIC
involvement in the development of DoD systems before the award of the ETAS
contract. The Director asserts that the exchange of information between the
contracting officer and SAIC establishes that the contracting officer and DOT&E
were aware of SAIC’s role concerning the FCS and did not consider that its role
was an OCI. He also asserted that the FAR Subpart 9.504 states that the contracting
officer should . . . “award the contract to the apparent successful bidder unless [an
OCI] is determined to exist and cannot be avoided or mitigated.” He further stated
that in this case, none of the contract tasks involve SAIC personnel in the
development of test requirements or evaluation of test data for individual
acquisition programs (the two test-related aspects of the FAR Subpart 9.5 definition
of systems engineering that could potentially create an OCI for SAIC). Therefore,

                                        56
                              FOR OFFICIAL USE ONLY
it is reasonable that the contracting officer and DOT&E determined that there was
no OCI.

Our Response. We found no evidence to support that an OCI evaluation of
prospective offerors was conducted prior to the April 26, 2004, contract award but
we did find evidence to the contrary. Only after receiving an industry inquiry
regarding the award of the ETAS contract did the contracting officer inquire how
the Government concluded that SAIC had no OCIs that would preclude it from
consideration. Specifically, on May 24, 2004, after receiving the industry inquiry,
the contracting officer wrote the DOT&E Contracts Manager requesting an answer
to the following question.

       On what basis did the Government conclude that the awardee’s (SAlC) participation in the
       development of the Future Combat System did not violate the OCI clause in the
       solicitation?

On June 1, 2004, the DOT&E Contracts Manager wrote the following reply.

       The government determined that SAIC did not have “significant involvement in
       development of DOD systems”. SAIC’s role in Future Combat Systems (FCS) is as a lead
       systems integrator (LSI). This is a systems integration contract, not a development
       contract.

The DOT&E Contracts Manager copied the previous two sentences in his response
to the contracting officer for the ETAS contract directly from SAIC’s proposal. In
addition, the DOT&E’s Contracts Manager stated:

       DOT&E concluded that SAIC’s participation in FCS did not violate the OCI clause in the
       solicitation and therefore did not preclude them from competing for the ETAS contract.

Further, in responding to our question, “Who made the ‘no OCI determination?’ in
awarding SAIC the ETAS contract,” the DOT&E Contracts Manager stated in a
written response dated August 7, 2007,

       There was no “no OCI determination” as such at the time of the SAIC ETAS contract
       award.

The DOT&E Contracts Manager’s June 1, 2004 response to the ETAS contracting
officer that SAIC was not involved in the development of the FCS also came after
the award of the contract. In addition, the August 7, 2007, response contradicts the
statement that there was an OCI determination made prior to the contract award. In
a November 6, 2007 e-mail, the DOT&E Contracts Manager confirmed that he got
the words for the June 1, 2004, response to the contracting officer from the former
Director.

       The DOT&E response to the question came out of a meeting, or meetings, in the office of
       the Director of DOT&E at the time. Wording was discussed and the Director determined
       what the wording of DOT&E’s response should be. He directed me to provide that
       response to the contracting officer and I did so in the e-mail message of 1 June 2004.

                                         57
                               FOR OFFICIAL USE ONLY
Comments Related to JT&E Support. The Director stated that the JT&E
program is not connected with the operational test and evaluation of system
acquisitions and is not relevant to DOT&E’s roles, responsibilities, and functions
associated with operational test and evaluation under 10 U.S.C. 2399. He also
stated that the results obtained from the JT&E program provide the Combatant
Commanders recommendations for potential changes to tactics, training, and
procedures, as well as associated training products. The results are also used to
generate “lessons learned” and may, on an ancillary basis, be used to suggest
improvements to existing capabilities. The Director further stated that after being
assigned oversight of the JT&E program in 2004, he recognized that the existing
JT&E contract structure had the potential for OCI issues solely within the JT&E
program and took action to avoid that risk by establishing a new contract structure
and this fact is not acknowledged in the report.

Our Response. We agree the JT&E support is not relevant to DOT&E’s roles,
responsibilities, and functions associated with operational test and evaluation under
10 U.S.C. 2399; however, there is the potential for SAIC to have OCIs as defined
by Subpart FAR 9.5. We recognize that the Director modified the contract structure
after being assigned the program; however, its enhanced controls are still
insufficient to prevent SAIC from being put in the position to favor its own
products. In May 2009, the U.S. Central Command Science Advisor working on a
Quick Reaction Test Working Group for the JT&E Program designated an SAIC
contract employee to represent U.S. Central Command at a June 2009 Quick
Reaction Test Working Group meeting. The SAIC employee, working under
contract number W91C9G-07-D-0002 described in our report, was authorized to
speak and execute actions, to include voting on behalf of the Science Advisor
during the a June 2009 meeting. The purpose of the meeting was a review of recent
Quick Reaction Test nominations in order to provide a prioritized listing to the
Executive Steering Group for approval and funding.

Comments on the Need for the Government to Perform an Independent
Review of its Own Concerning OCI. The Director stated that the contractor is in
the best position to identify OCIs and took exception to the position that the
Government needs to conduct an independent review concerning OCI issues and
not rely on the contractor to make such determinations.

Our Response. We believe there is an inherent internal control problem relying
solely on the contractor to identify OCIs and made the recommendations in this
report to address the problem.




                                        58
                              FOR OFFICIAL USE ONLY
Recommendations, Management Comments, and Our
  Response
1. We recommend that the Commander, Future Combat Systems Program Office:

       a. Discontinue obtaining advisory and assistance services from the Science
Application International Corporation, a Future Combat System developer, unless a
waiver is obtained from the agency head and the waiver request and decision are
included in the contract file as required by Federal Acquisition Regulation
Subpart 9.5.

       b. Determine whether the command’s advisory and assistance services
requirements would be more appropriately met by Government employees.

Future Combat Systems Program Office Comments
The Program Executive Office, Integration (formerly the Program Manager, Future
Combat Systems, Brigade Combat Team), agreed with the recommendations. The
Program Office will immediately refrain from acquiring advisory and assistance
services from SAIC on any other system developer where such effort equates to an
OCI that cannot be avoided, neutralized, or mitigated in accordance with FAR
Subpart 9.5. The Program Office is also assessing whether its advisory and
assistance services requirements could be better met by Government employees.

Our Response
The Program Executive Office, Integration, comments are responsive, and the
actions meet the intent of the recommendations.

2. We recommend that the Commander, Developmental Test Command:

       a. Determine whether it’s appropriate to obtain advisory and assistance
services from the Science Application International Corporation, Northrop
Grumman, or any other contractor that has significant involvement in the
development of DoD systems unless a waiver is obtained from the agency head and
the waiver request and decision are included in the contract file as required by
Federal Acquisition Regulation Subpart 9.5.

Developmental Test Command Comments
The Chief of Staff, ATEC, agreed with the recommendation and stated that ATEC
and its subordinate commands devoted considerable effort to prevent potential OCIs
from occurring. He further stated that although a 10 U.S.C. 2399 conflict was not
subject to waiver, ATEC was diligently working to prevent any OCI and has not
pursued seeking waivers in accordance with FAR Subpart 9.5. He also stated that
DTC will not be obtaining contractor support from SAIC for FY 2010, as the FCS
Program Office has decided not to fund the support. However, the DTC test centers

                                       59
                             FOR OFFICIAL USE ONLY
are using Northrop Grumman, CSC, and Lockheed Martin personnel to augment the
Government workforce. The Chief of Staff also stated that the test centers would
not be able to accomplish their mission without the use of contractor support
personnel and that they are continuously working with ATEC to identify
appropriate restrictions and to ensure oversight and management is in place.

Our Response
The Chief of Staff, ATEC, comments are partially responsive. If DTC plans to continue to
use Northrop Grumman, CSC, and Lockheed Martin personnel to augment the test centers’
Government workforce, the Command needs to obtain a waiver from the contracting
agency head in accordance with FAR 9.503. We request that the Chief of Staff provide
additional comments in response to the final report.

       b. Determine whether the command’s advisory and assistance services
requirements would be more appropriately met by Government employees.

Developmental Test Command Comments
The Chief of Staff, ATEC, agreed with the recommendation and stated that ATEC
was reviewing what the right mix of Government and support contractors should be,
consistent with DOD and congressional guidance.

Our Response
The Chief of Staff, ATEC, comments are responsive, and the actions meet the intent of the
recommendation.

3. We recommend that the Director of Operational Test and Evaluation:

       a. Determine whether it is appropriate to obtain advisory and assistance
services from the Science Application International Corporation or any other
contractor that has significant involvement in development of DoD systems that the
Director is or will overseeing. If the Director determines that it is essential to use the
same contractor, appropriate waiver procedures should be followed as required by
10 U.S.C. 2399 and Federal Acquisition Regulation Subpart 9.5.

Director of Operational Test and Evaluation Comments
The Director agreed with the recommendation to determine whether it is appropriate to
obtain advisory services from any contractor that has significant involvement in the
development of systems that the Director is overseeing or will oversee.

Our Response
The Director’s comments are partially responsive. The Director did not provide comments
or a timeframe as to when DOT&E would determine if it was appropriate to obtain
advisory services from the same contractors that have significant involvement in the
development of DoD systems that are under, or will be under, the Director’s oversight. We
request that the Director provide comments in response to the final report that clarify his

                                        60
                              FOR OFFICIAL USE ONLY
position as to whether it is or is not appropriate to obtain advisory services from contractors
involved in the development of DoD systems that are under, or will be under, the Director’s
oversight.

       b. Determine whether the command’s advisory and assistance services
requirements would be more appropriately met by Government employees.

Director of Operational Test and Evaluation Comments
The Director agreed with the recommendation and stated that a comprehensive review of
personnel requirements would be undertaken to develop a plan for the future use of both
Government and contractor personnel and will take action to increase the allocation of
Government personnel positions if appropriate.

Our Response
The Director’s comments are responsive, and the actions meet the intent of the
recommendation.

       4. We recommend that the Commander, Army Test and Evaluation
Command determine whether the command’s advisory and assistance services
requirements would be more appropriately met by Government employees.

Army Test and Evaluation Command Comments
The Chief of Staff, ATEC, agreed with the recommendation and noted that while
using only Government employees to meet requirements would likely eliminate
some potential OCIs, he disagreed with adopting an all Government workforce.

Our Response
The Chief of Staff, ATEC, comments are responsive, and no further comments are
required. Additionally, we did not advocate an all Government workforce, but
whether such advisory and assistance services were more appropriately met by
Government employees to avoid OCIs. Otherwise, a waiver should be obtained.

5. We recommend that the Commander, Army Evaluation Center:

       a. Determine whether it is appropriate to obtain advisory and assistance
services from the Science Application International Corporation, Northrop
Grumman, or any other contractor that has significant involvement in the
development of DoD systems that the Command is or will be overseeing. If the
Commander determines that it is essential to use the same contractor, appropriate
waiver procedures should be followed, as required by Federal Acquisition Regulation
Subpart 9.5 for non-Title 10 U.S.C. 2399 support.

       b. Determine whether the command’s advisory and assistance services
requirements would be more appropriately met by Government employees.


                                         61
                               FOR OFFICIAL USE ONLY
Army Evaluation Center Comments
The Chief of Staff, ATEC, agreed with the recommendations and stated that ATEC
and its subordinate commands devoted considerable effort to prevent potential OCIs
from occurring. While a 10 U.S.C. 2399 conflict was not subject to waiver, ATEC
was diligently working to prevent any OCIs and has not pursued seeking waivers in
accordance with FAR Subpart 9.5. The Chief of Staff also stated that no support
from either SAIC or Northrop Grumman has been or will be used by AEC in the
evaluation of the FCS. He further stated that ATEC was reviewing what the right
mix of Government and support contractors should be, consistent with DOD and
congressional guidance.

Our Response
The Chief of Staff, ATEC, comments are responsive, and the actions meet the intent
of the recommendations.

6. We recommend that the Commander, Operational Test Command:

        a. Determine whether it is appropriate to obtain advisory and assistance
services from Computer Sciences Corporation or any other contractor that has
significant involvement in the development of DoD systems that the Command is or
will be overseeing. If the Commander determines that it is essential to use the same
contractor, appropriate waiver procedures should be followed, as required by Federal
Acquisition Regulation Subpart 9.5 for non-Title 10 U.S.C. 2399 support.

       b. Determine whether the command’s advisory and assistance services
requirements would be more appropriately met by Government employees.

U.S. Army Operational Test Command Comments
The Chief of Staff, ATEC, agreed with the recommendations and stated that ATEC
and its subordinate commands devoted considerable effort to prevent potential OCIs
from occurring. While a 10 U.S.C. 2399 conflict was not subject to waiver, ATEC
was diligently working to prevent any OCI and has not pursued seeking waivers
under FAR Subpart 9.5. The Chief of Staff also stated that OTC had determined
that it was inappropriate to obtain advisory and assistance services from CSC or
other major system developers as test support contractors. As such, OTC
discontinued using CSC for support in October 2007 and will terminate its advisory
and assistance services contract with General Dynamics by November 2009. The
Chief of Staff also stated that ATEC was reviewing what the right mix of
Government and support contractors should be, consistent with DOD and
congressional guidance.




                                       62
                             FOR OFFICIAL USE ONLY
Our Response
The Chief of Staff, ATEC, comments are responsive, and the actions meet the intent of the
recommendations.

7. We recommend that the Director, Defense Procurement and Acquisition Policy:

        a. Develop a Defense Federal Acquisition Regulation Supplement standard
advisory and assistance services organization conflict of interest clause, which
precludes contractors that are involved in the development, production, or testing of a
system for a military department from providing technical advice to the program
office for that system or from participating in activities impacting the operational test
and evaluation of that system unless appropriate waivers are obtained. The clause
should make it incumbent on the proposing contractor to identify in their proposal
any work that that they are or have performed either under prime contract or
subcontract related to the development or supply of a DoD system. The clause should
also require the contractor to disclose any changes that could create potential conflicts
during the life of the contract, and potentially require a recertification of disclosure of
any changes upon execution the annual option to extend the contract.

      b. Emphasize to the acquisition community the importance of complying with
Federal Acquisition Regulation Subpart 9.5 and the significance of not placing
contractors in positions to make decisions that favor their own capabilities and that
any decisions to waive the requirements must be adequately supported and
documented in the contract files.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed with the
recommendations and stated that he will recommend a clause when formulating
related clauses under the Defense Federal Acquisition Regulation Supplement
Case 2009-015, “Organizational Conflicts of Interest in Major Defense Acquisition
Programs.” If that case is not the appropriate venue, the Director will recommend
the initiation of a new case to address the issue. The Director also stated that he
would issue a memorandum emphasizing the importance of complying with FAR
OCI provisions after the FAR Acquisition Law Team issues its final rule for a
related FAR case to ensure that he does not issue conflicting guidance.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments are
responsive, and the actions meet the intent of the recommendations.




                                        63
                              FOR OFFICIAL USE ONLY
Appendix A. Scope and Methodology
We conducted this performance audit from June 2007 through August 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our finding and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.

Our review focused on whether the same engineering and technical analysis contractors
that participated in (or are participating in) the development, production, or testing of the
FCS were also involved with the operational testing for such systems. To make this
determination, we reviewed documentation related to the contract actions issued between
FY 2000 and FY 2008 to support the DOT&E, the FCS program office, and the Army
test and evaluation missions. This was a particularly challenging task because
the Army employed the LSI concept to develop the FCS and much work had been turned
over to support contractors. Thus, it was very difficult to locate the responsible Army
officials. Further, the responsibility for FCS was distributed among numerous
geographically dispersed commands, subordinate commands, and centers due to the
breadth and complexity of various aspects of the development and testing of the family of
14 manned and unmanned subsystems being networked together under the $159 billion
FCS program. The team performed field work at the following organizations:

      U.S. Army Future Combat System Brigade Combat Team Program Manager
       (Warren, Michigan)
           o AMCOM (Huntsville, Alabama)
           o U.S. Army Armaments Command (Picatinny, New Jersey)
           o Combined Test Organization (Aberdeen, Maryland)

      Director of Operation Test and Evaluation (Arlington, Virginia)
           o Land and Expeditionary Warfare Directorate (Washington, D.C.)
           o Joint Test and Evaluation Program Manager (Arlington, Virginia)

      U.S. Army Test and Evaluation Command (Alexandria, Virginia)
           o U.S. Army Developmental Test Command (Aberdeen, Maryland)
                 White Sand Missile Range (White Sands, New Mexico)
                 Electronic Proving Ground (Fort Huachuca, Arizona)
           o U.S. Army Operational Test Command (Fort Hood, Texas)
           o U.S. Army Evaluation Center (Alexandria, Virginia)
           o Combined Test Organization (Aberdeen, Maryland)

In addition, most of the organizations used contracting activities outside of their
command to award and administer their contract actions. For example, the FCS program
office sent funds to the DTC, through the Combined Test Organization and ATEC, for

                                        64
                              FOR OFFICIAL USE ONLY
FCS developmental testing. DTC, in turn, transferred the money to its Redstone
Technical Test Center which used the funds to pay for work performed under the
AMCOM Express BPA which was administered by AMCOM.

In addition, to evaluate the legitimacy of the allegations made to the Defense hotline, we
also met with representatives from Boeing, SAIC, and NewTec to obtain information
relating to SAIC’s role with FCS.

Use of Computer-Processed Data
We used computer-processed data produced by the U.S. Bureau of Labor Statistics’
consumer price index calculator to assess whether DOT&E reliance on services
contractors for fulfilling its advisory services requirements had increased since our 1991
audit. To verify the reliability of that information, we compared the calculator’s inflation
adjusted values to amounts we calculated from historical consumer price index data.
Nothing came to our attention as a result of performing these comparisons that caused us
to doubt the reliability of the values produced by the consumer price index calculator.

Prior Coverage
The Government Accountability Office (GAO) and the DoD IG have issued five reports
that either discussed FCS or OCI-related issues. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-638T, “Defense Acquisitions, 2009 Review of Future Combat
System Is Critical to Program’s Direction,” April 10, 2008

GAO Report No. GAO-08-467SP, “Defense Acquisitions, Assessments of Selected
Weapon Systems,” March 31, 2008

GAO Report No. GAO-07-380, “Defense Acquisitions, Role of Lead System Integrator
on Future Combat Systems Program Poses Oversight Challenges,” June 6, 2007

GAO Report No. GAO-07-376, “Defense Acquisitions, Key Decisions to Be Made on
Future Combat System (FCS),” March 15, 2007

DoD IG

DoD IG Report No. 91-115, “Consulting Services Contracts for Operational Test and
Evaluation,” August 22, 1991




                                        65
                              FOR OFFICIAL USE ONLY
Appendix B. Hotline Complaint
Allegation 1: SAIC has an OCI issue that should have prevented it from being
considered for the award.

Audit Results: The allegation was substantiated. SAIC supports the FCS systems of
systems development and integration efforts including the design, development,
integration, experimentation, assessment, verification, demonstration, test planning,
execution, and evaluation activities for the FCS family of systems. SAIC also provides
Program Management, Business Management, and Supplier Management support.
Clearly, SAIC is significantly involved in the development of a system under, or will be
under, DOT&E’s oversight and therefore should have been excluded.

Allegation 2: SAIC did not acknowledge the importance of its role in FCS for fear of
being forced from the competition based on the Governments guidelines and rules.

Audit Results: The allegation was substantiated. Although SAIC stated that it was
Boeing’s primary commercial subcontractor for the Army’s FCS LSI contract, it did not
recognize the significance of the nature of the work it performed under the contract.
Specifically, in its proposal, SAIC stated:
   [The] LSI contract is a system integration contract, not a development (supply-the-system or
   maintain-the-system) contract. The contract is a nontraditional acquisition program in which
   the role of LSI is somewhat analogous to that of a program office. The LSI team, with
   Boeing as the lead contractor and SAIC the primary subcontractor will:

       •   will work in partnership with the Army and DARPA
       •   have systems integration responsibility for the FCS Program.”

It should be noted that FCS program manager has overall responsibility to develop,
procure, and field the FCS and it would be inappropriate for the LSI for the program
manager to support DOT&E. The FCS program has received $11.4 billion of research,
development, test, and evaluation funds through FY 2007 that were used to fund the
Boeing/SAIC LSI efforts.

Allegation 3: DOT&E misrepresented the role of an LSI and did not properly research
SAIC roles in procuring critical subsystems of the FCS.

Audit Results: The allegation was substantiated. Although DOT&E was aware of
SAIC’s role as a LSI on the Army FCS program, DOT&E did not assess whether their
work in that capacity constituted significant involvement in the development of the FCS.




                                           66
                                 FOR OFFICIAL USE ONLY
Appendix C. Weapon Systems Acquisition
Reform Act of 2009
Public Law 111-23, “Weapon Systems Acquisition Reform Act of 2009,” became law on
May 22, 2009, to improve the organization and procedures of the Department of Defense
for the acquisition of major weapon systems, and for other purposes. Section 207 of the
Act addresses OCI issues. Section 207 states:
   SEC. 207. ORGANIZATIONAL CONFLICTS OF INTEREST IN MAJOR DEFENSE
   ACQUISITION PROGRAMS.

       (a) REVISED REGULATIONS REQUIRED.—Not later than 270 days after the date of the
   enactment of this Act, the Secretary of Defense shall revise the Defense Supplement to the Federal
   Acquisition Regulation to provide uniform guidance and tighten existing requirements for
   organizational conflicts of interest by contractors in major defense acquisition programs.

       (b) ELEMENTS.—The revised regulations required by subsection (a) shall, at a minimum—

                (1) address organizational conflicts of interest that could arise as a result of—
                          (A) lead system integrator contracts on major defense acquisition programs
                and contracts that follow lead system integrator contracts on such programs,
                particularly contracts for production;
                          (B) the ownership of business units performing systems engineering and
                technical assistance functions, professional services, or management support services
                in relation to major defense acquisition programs by contractors who simultaneously
                own business units competing to perform as either the prime contractor or the
                supplier of a major subsystem or component for such programs;
                          (C) the award of major subsystem contracts by a prime contractor for a
                major defense acquisition program to business units or other affiliates of the same
                parent corporate entity, and particularly the award of subcontracts for software
                integration or the development of a proprietary software system architecture; or
                          (D) the performance by, or assistance of, contractors in technical
                evaluations on major defense acquisition programs;

               (2) ensure that the Department of Defense receives advice on systems architecture
           and systems engineering matters with respect to major defense acquisition programs from
           federally funded research and development centers or other sources independent of the
           prime contractor;

                (3) require that a contract for the performance of systems engineering and technical
           assistance functions for a major defense acquisition program contains a provision
           prohibiting the contractor or any affiliate of the contractor from participating as a prime
           contractor or a major subcontractor in the development or construction of a weapon
           system under the program; and

               (4) establish such limited exceptions to the requirement in paragraphs (2) and (3) as
           may be necessary to ensure that the Department of Defense has continued access to
           advice on systems architecture and systems engineering matters from highly-qualified
           contractors with domain experience and expertise, while ensuring that such advice comes
           from sources that are objective and unbiased.


                                           67
                                 FOR OFFICIAL USE ONLY
    (c) CONSULTATION IN REVISION OF REGULATIONS.—

             (1) RECOMMENDATIONS OF PANEL ON CONTRACTING INTEGRITY.—
        Not later than 90 days after the date of the enactment of this Act, the Panel on
        Contracting Integrity established pursuant to section 813 of the John Warner National
        Defense Authorization Act for Fiscal Year 2007 (Public Law 109–364; 120 Stat. 2320)
        shall present recommendations to the Secretary of Defense on measures to eliminate or
        mitigate organizational conflicts of interest in major defense acquisition programs.

            (2) CONSIDERATION OF RECOMMENDATIONS.—In developing the revised
        regulations required by subsection (a), the Secretary shall consider the following:
                      (A) The recommendations presented by the Panel on Contracting Integrity
            pursuant to paragraph (1).
                      (B) Any findings and recommendations of the Administrator for Federal
            Procurement Policy and the Director of the Office of Government Ethics pursuant to
            section 841(b) of the Duncan Hunter National Defense Authorization Act for Fiscal
            Year 2009 (Public Law 110–417; 122Stat. 4539).

    (d) EXTENSION OF PANEL ON CONTRACTING INTEGRITY.—Subsection(e) of section
813 of the John Warner National Defense Authorization Act for Fiscal Year 2007 is amended to
read as follows:

    (e) TERMINATION.—

            (1) IN GENERAL.—Subject to paragraph (2), the panel shall continue to serve until
        the date that is 18 months after the date on which the Secretary of Defense notifies the
        congressional defense committees of an intention to terminate the panel based on a
        determination that the activities of the panel no longer justify its continuation and that
        concerns about contracting integrity have been mitigated.

             (2) MINIMUM CONTINUING SERVICE.—The panel shall continue to serve at
        least until December 31, 2011.




                                       68
                             FOR OFFICIAL USE ONLY
Defense Procurement and Acquisition Policy Comments




                  Click to add JPEG file




                                 69
                       FOR OFFICIAL USE ONLY
Defense Procurement and Acquisition Policy Comments




                  Click to add JPEG file




                                 70
                       FOR OFFICIAL USE ONLY
Department of the Army (Future Combat Systems Program
Office) Comments




                  Click to add JPEG file




                                 71
                       FOR OFFICIAL USE ONLY
Department of the Army (Future Combat Systems Program
Office) Comments




                  Click to add JPEG file




                                 72
                       FOR OFFICIAL USE ONLY
Department of the Army (Army Test and Evaluation
Command) Comments




                   Click to add JPEG file




                                  73
                        FOR OFFICIAL USE ONLY
Department of the Army (Army Test and Evaluation
Command) Comments




                   Click to add JPEG file




                                  74
                        FOR OFFICIAL USE ONLY
Department of the Army (Army Test and Evaluation
Command) Comments




                   Click to add JPEG file




                                  75
                        FOR OFFICIAL USE ONLY
Department of the Army (Army Test and Evaluation
Command) Comments




                   Click to add JPEG file




                                  76
                        FOR OFFICIAL USE ONLY
Department of the Army (Army Test and Evaluation
Command) Comments




                   Click to add JPEG file




                                  77
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments




                   Click to add JPEG file




                                  78
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments




                   Click to add JPEG file




                                  79
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments




                   Click to add JPEG file




                                  80
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments

                                                         Final Report
                                                          Reference




                   Click to add JPEG file




                                                       Page 9




                                  81
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments

                                                         Final Report
                                                          Reference




                                                       Page 11




                                                       Page 23



                                                       Page 23

                   Click to add JPEG file




                                  82
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments


                                                         Final Report
                                                          Reference




                                                       Page 28, 2nd
                                                       Paragraph


                   Click to add JPEG file




                                                       Pages 28-32




                                  83
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments


                                                         Final Report
                                                          Reference




                                                       Page 32




                   Click to add JPEG file

                                                       Page 32




                                                       Page 51




                                                       Pages 51-53




                                  84
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments


                                                         Final Report
                                                          Reference




                                                       Pages 53-54




                   Click to add JPEG file
                                                       Pages 59-60




                                                       Page 66




                                  85
                        FOR OFFICIAL USE ONLY
Director of Operational Test and Evaluation Comments


                                                         Final Report
                                                          Reference




                                                       Page 66




                   Click to add JPEG file




                                  86
                        FOR OFFICIAL USE ONLY
FOR OFFICIAL USE ONLY
